<html>
<title> - MARINE CORPS FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND OPERATION ENDURING FREEDOM</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                          [H.A.S.C. No. 110-3]
 
                           MARINE CORPS FORCE
                        PROTECTION EQUIPMENT FOR
                      OPERATION IRAQI FREEDOM AND
                       OPERATION ENDURING FREEDOM

                               __________

                                HEARING

                               BEFORE THE

             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                              HEARING HELD

                            JANUARY 16, 2007

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13

                                     
  
                                     
                    U.S. GOVERNMENT PRINTING OFFICE
37-304                      WASHINGTON : 2007
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001


             SEAPOWER AND EXPEDITIONARY FORCES SUBCOMMITTEE

                   GENE TAYLOR, Mississippi, Chairman
NEIL ABERCROMBIE, Hawaii             ROSCOE G. BARTLETT, Maryland
RICK LARSEN, Washington              KEN CALVERT, California
MADELEINE Z. BORDALLO, Guam          TERRY EVERETT, Alabama
BRAD ELLSWORTH, Indiana              JO ANN DAVIS, Virginia
JOE COURTNEY, Connecticut            J. RANDY FORBES, Virginia
KIRSTEN GILLIBRAND, New York         JOE WILSON, South Carolina
JOE SESTAK, Pennsylvania
               Jesse Tolleson, Professional Staff Member
                 John Wason, Professional Staff Member
                    Jason Hagadorn, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2007

                                                                   Page

Hearing:

Tuesday, January 16, 2007, Marine Corps Force Protection 
  Equipment for Operation Iraqi Freedom and Operation Enduring 
  Freedom........................................................     1

Appendix:

Tuesday, January 16, 2007........................................    37
                              ----------                              

                       TUESDAY, JANUARY 16, 2007
MARINE CORPS FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND 
                       OPERATION ENDURING FREEDOM
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Bartlett, Hon. Roscoe G., a Representative from Maryland, Ranking 
  Member, Seapower and Expeditionary Forces Subcommittee.........     2
Taylor, Hon. Gene, a Representative from Mississippi, Chairman, 
  Seapower and Expeditionary Forces Subcommittee.................     1

                               WITNESSES

Alles, Brig. Gen. Randolph, Commanding General, Marine Corps 
  Warfighting Laboratory, Vice Chief of Naval Research...........     3
Brogan, Brig. Gen. Michael M., Commander, Marine Corps Systems 
  Command........................................................     4

                                APPENDIX

Prepared Statements:


    Alles, Brig. Gen. Randolph...................................    41
    Brogan, Brig. Gen. Michael M.................................    56

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:


    Mr. Abercrombie..............................................    80
    Ms. Bordallo.................................................    81
    Mr. Courtney.................................................    82
    Mr. Taylor...................................................    77
MARINE CORPS FORCE PROTECTION EQUIPMENT FOR OPERATION IRAQI FREEDOM AND 
                       OPERATION ENDURING FREEDOM

                              ----------                              

                  House of Representatives,
                       Committee on Armed Services,
            Seapower and Expeditionary Forces Subcommittee,
                         Washington, DC, Tuesday, January 16, 2007.
    The subcommittee met, pursuant to call, at 3 p.m. in room 
2212, Rayburn House Office Building, Hon. Gene Taylor (chairman 
of the subcommittee) presiding.

 OPENING STATEMENT OF HON. GENE TAYLOR, A REPRESENTATIVE FROM 
   MISSISSIPPI, CHAIRMAN, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Taylor. If the committee would come to order. The 
purpose of this hearing is to provide members of the 
subcommittee with the most current updates on the status and 
effectiveness of the Marine Corps' force protection equipment 
in Operation Iraqi Freedom and Operation Enduring Freedom. The 
subcommittee expects to hear how these current force protection 
initiatives are being produced and fielded in an expedited 
manner.
    More importantly, this public hearing is an opportunity for 
the moms, dads, wives, and husbands of our fighting men and 
women to find what their leadership is doing to protect their 
loved ones against the unconventional and asymmetric threats 
that are the reality that our troops face in Afghanistan and 
Iraq.
    This hearing is not a debate on the war in Iraq. This 
hearing was called to determine if everything that can possibly 
be done is being done to protect our troops. Of predictable 
interest to the subcommittee is the next generation of armored 
vehicles, the Mine Resistant Ambush Protected vehicles commonly 
referred to as MRAP. The committee will be very interested to 
understand the acquisition plans for these vehicles and any 
roadblocks in their rapid procurement.
    I would like to welcome my mentor, my friend, and my fellow 
chairman, Roscoe Bartlett, who is just absolutely the best 
subcommittee chairman I could have been associated with, who 
has taught me a heck of a lot about respecting old Members. So 
if I ever fail to live up to your expectations, you let me 
know.
    We also are fortunate to have one of the newest Members of 
Congress, retired Navy Admiral, Admiral Sestak from 
Pennsylvania, joining us.
    Mr. Courtney, thank you very much for showing up.
    But, most of all, Generals, we want to hear from you.
    It was about a year ago that I had a visit from the former 
head of the Army Liaison Office, Colonel Jim Littig; and he 
explained to me that, in addition to the steps we have taken to 
up-armor the High Mobility Multi-purpose Wheeled Vehicle 
(HMMWV)--better body armor, the jammers--that a continuing 
mistake that was being made in Iraq was the fact that we were 
sending a flat-bottom vehicle out that was regularly being hit 
by mines. And all of the technology for V-bottom vehicles has 
been used by the Russians, by the South Africans and others for 
decades, that we are falling behind on that.
    Particularly, a follow-up conversation that I was fortunate 
to have with Lieutenant General Stephen Blum actually said it 
is worse than a flat-bottom vehicle taking a blast, that 
actually the channel in the bottom of the HMMWV that is 
designed to protect the drive shaft actually has the 
unfortunate effect of shaping the charge so that much of the 
force of the blast ends up in the inside of the HMMWV.
    So the HMMWV, the vehicle itself, is doing more than we 
ever expected it to do, but it is time to move on on that 
program for something that is safer for our Marines.
    For the sake of the newer Members, I would hope you would 
walk them through all of the acquisitions.
    I want to thank both of you for meeting with me last week. 
I was impressed with your knowledge. I was impressed with your 
desire to get the job done. You set a very ambitious target 
date to having these vehicles in Iraq and Afghanistan. Now that 
you have set that date freely, this committee expects you to--
we are going to work with you to see that target is met.
    So, without any further statement, Mr. Ranking Member, we 
would welcome your remarks.

  STATEMENT OF HON. ROSCOE G. BARTLETT, A REPRESENTATIVE FROM 
  MARYLAND, RANKING MEMBER, SEAPOWER AND EXPEDITIONARY FORCES 
                          SUBCOMMITTEE

    Mr. Bartlett. Thank you very much.
    I would like to ask unanimous consent to submit my opening 
statement for the record.
    Mr. Taylor. Okay.
    Testifying before our committee today is Brigadier General 
Randolph Alles and Brigadier General Michael Brogan, both with 
the United States Marine Corps.
    General Alles is the Commanding General of the Marine Corps 
War Fighting Laboratory. The War Fighting Lab is part of the 
Marine Corps Combat Development Command, And its stated purpose 
is to improve current and future expeditionary warfare 
capabilities across the full spectrum of conflict.
    Brigadier General Alles is also the subject matter expert 
for improvised explosive devices (IED), IED jammers, and 
electronic countermeasures. He also represents the Marine Corps 
as a member of the Joint IED Defeat Organization.
    General Brogan is the Commanding General of the Marine 
Corps Systems Command. His organization is the Acquisition 
Armor of the Marine Corps. He is responsible for all areas of 
Marine Corps procurement, including an analysis of contractor 
performance, an area I am sure we will examine today.
    I want to thank both of you. It is the norm, under the 
rules proposed by Congressman Skelton, for our witnesses to 
speak for five minutes. That will not be necessary today. 
Please take all the time that you feel necessary to inform the 
committee what the Marine Corps needs to see and is doing.

STATEMENT OF BRIG. GEN. RANDOLPH D. ALLES, COMMANDING GENERAL, 
   MARINE CORPS WARFIGHTING LABORATORY, VICE CHIEF OF NAVAL 
                            RESEARCH

    General Alles. Mr. Chairman, Representative Bartlett, and 
members of the Seapower and Expeditionary Forces Subcommittee, 
thank you for the opportunity to appear before you today to 
discuss Marine Corps force protection efforts.
    The Marine Corps is fighting today's wars while remaining 
focused on the challenges that lie ahead. We are mindful that 
the struggle against enemies of this Nation and her allies is 
multifaceted and generational in nature. Challenges to our 
national security interests in the years ahead will be 
characterized by a diverse array of emerging and deteriorating 
nation-states and non-state actors such as transnational 
terrorists and criminals. Our ability to achieve success on a 
fluid and linear battlefield will require a very agile and 
highly responsive force that is properly equipped, well 
trained, and maintained at a high state of readiness.
    A fundamental dictum to our survivability and success in 
the current security environment is the need to structure 
processes that increase our responsiveness to the warfighter. 
We have streamlined the Urgent Universal Needs Statement 
process, shortening the timelines such that most are approved 
in under 90 days. The flexibility and timeliness to reprogram 
funds toward unanticipated emergency requirements remains a 
challenge and represents an area for improved support to 
increase responsiveness to our forward deployed forces.
    We are fighting a thinking enemy who is trying very hard to 
kill us. As we modify our force protection measures, our 
enemies mature in their sophistication and lethality. We 
continue aggressively to adapt our training and equipment to 
this changing threat. Congress has responded rapidly, and 
generously, to our request for equipment and increased 
protection; and we take seriously our responsibility to manage 
these resources prudently.
    The Marine Corps has made great strides in countering two 
of the most prominent threats we face: the Improvised Explosive 
Device and sniper. The Marine Corps Warfighting Lab is leading 
a four-pronged approach to countering the threat from snipers 
that focuses on increasing the ability to sense and warn, deny, 
protect, and respond. The Lab has leveraged the cooperative 
efforts of the Defense Advanced Research Projects Agency 
(DARPA), the Army, the Navy, the National Ground Intelligence 
Center, and numerous Marine Corps agencies in these efforts. 
Future sense and warn capabilities include optical, acoustic, 
and infrared detection and location.
    We have made tangible progress countering IEDs. My written 
statement expands upon programs such as IED Detector Dogs, 
robotics, and IED neutralizers. These technologies provide a 
responsive detection and neutralization capability.
    The Marine Corps, in coordination with the Office of Naval 
Research (ONR), is researching and investigating new materials 
and designs for integration into improved body armor systems 
that provide lightweight, modular protection for the individual 
consistent with identified requirements, both current and 
future.
    Probably the single most effective item in protecting 
Marines has been our various vehicle-armoring efforts; and 
while we have saved countless Marine lives by doing so, the 
enemy is extremely adaptive and responds to our increased 
protection by making larger and more lethal types of IEDs. We 
remain diligent in working with the Joint IEDDO and supporting 
their various armor studies and tests, the results of which 
will be invaluable in pending and future protection efforts. 
The Army/Marine Corps Board has proven a valuable forum for 
coordination of not only requirements but, also, rapid response 
to Combatant Commander's requests such as Mine Resistant Ambush 
Protected (MRAP) vehicles.
    In addition to material and technology solutions, the 
Marine Corps is working diligently to develop and implement 
training and education programs that mitigate risk, enhance 
force protection and contribute to our ability to accomplish 
the mission. Our rapid and effective lessons learned management 
system promptly captures the complexity of combat situations 
faced by our marines and sailors around the globe to enhance 
our training programs.
    Looking ahead to the challenges of the long war, the Marine 
Corps has enhanced its counterinsurgency capabilities by 
completely revamping training and producing a body of 
publications that educates and informs our small and large unit 
leaders alike.
    Through innovation, institutional adaptation and 
congressional support, your Marine Corps is obtaining the 
needed resources to prevail in the new security environment. 
The challenges we face are enormous, yet our past is replete 
with examples of how we have overcome daunting, seemingly 
insurmountable barriers that tested our resolve.
    On behalf of all Marines and Sailors, we thank the 
committee for your continued support that has enhanced our 
warfighting capability, saved lives and allowed us to protect 
this great Nation in an uncertain world.
    [The prepared statement of General Alles can be found in 
the Appendix on page 41.]
    Mr. Taylor. General Brogan.

 STATEMENT OF BRIG. GEN. MICHAEL M. BROGAN, COMMANDER, MARINE 
                     CORPS SYSTEMS COMMAND

    General Brogan. Chairman Taylor, Congressman Bartlett, 
distinguished members of the subcommittee, I am honored to 
appear before you this afternoon to discuss with you Marine 
Corps force protection systems.
    First, on behalf of all Marines, Sailors and their 
families, I want to thank you for your continued support of our 
Corps as we fight the long war on terror.
    General Alles described for you the technologies that he 
examines. For my part, I will describe to you our commitment to 
providing force protection to our Marines to save lives, to 
reduce casualties and to limit the severity of their injuries.
    Our goal is to ensure that our force protection 
requirements are quickly met with the best systems available. 
By partnering with industry and teaming with our sister 
services, we strive to meet this goal. We will describe for you 
several of those systems.
    Because the threat changes, we have direct day-to-day 
communications with our U.S. Army counterparts. We discuss 
strategies for changing our armor systems not only for 
individual warfighters but also for our ground vehicles. We 
frequently partner with the Army to test and procure these 
armor systems. For example, through this partnership, we have 
been able to rapidly test and modify the armor that we have 
employed in our wheeled vehicle fleet.
    Another area we are in close cooperation with the Army in 
benefiting our warfighter is the acquisition and fielding of 
Mine Resistant Ambush Protected vehicles, or MRAP, as you 
described, Mr. Chairman. These vehicles provide the best 
available protection for our warfighters against improvised 
explosive devices. These vehicles are designed with a V-shaped 
hull to protect the occupants from all three primary kill 
mechanisms of mines and IEDs: fragmentation, blast overpressure 
and acceleration.
    The Marine Corps has already fielded several variances of 
MRAPs, the first of which was known at the time as the Cougar 
Hardened Engineer Vehicle. Since the start of Operation Iraqi 
Freedom, we fielded 27 Cougars in support of disposal teams and 
combat engineers. We have also fielded an initial procurement 
of 122 Joint Explosive Ordinance Disposal Rapid Response 
Vehicles, or JERRV, in support of joint EOD teams throughout 
the theater. We are on track to complete fielding of a follow-
on procurement for 79 additional JERRV vehicles.
    Last month, I awarded sole source contract for 200 
additional vehicles to a company that is already in production. 
That is a bridge to get us in to a full and open competition so 
that we can expand the protection base and more rapidly put 
these vehicles in the hands of our warfighters. This effort 
will procure and field up to an additional 4,060 MRAP vehicles 
to our Nation's joint forces.
    Another counter ID system that we are fielding is the 
lightweight mine roller. These rollers protect convoys from 
pressure-plate-activated mines or victim-initiated improvised 
explosive devices.
    The need for lightweight rollers originated with Marines in 
the theater. Our initial urgent requirement, which we received 
in June of 2006, was for 31 systems. A quick query of industry 
identified only one company who had these in manufacture and 
that was in the United Kingdom.
    Subsequently, the Marine Corps developed its own design. 
Then the Marine Corps logistics command fabricated 53 of these 
systems to support the immediate need. In August, 2006, when 
requirement was increased to 407 systems, the Naval Surface 
Warfare Center, Panama City, Florida, developed a viable design 
lightweight mine roller and provided that concept to U.S. 
industry.
    We now have two U.S. prime contractors producing these 
systems. To date, we have fielded 256 of that 407 requirement 
with another 74 in route to theater. These mine rollers have 
already proven their value by saving lives and preserving 
equipment. In effect, they absorb the blasts that were intended 
for our Marines in occupied vehicles.
    Operations in Iraq and Afghanistan have highlighted the 
need to continually evolve our personal protective vest system. 
Therefore, beginning next month, we will start transitioning to 
the newly designed Modular Tactical Vest, or MTV. This vest is 
now in production, and even though it is virtually the same 
weight as its predecessor, the Outer Tactical Vest, or OTV, it 
is more easily integrated with our other personal protection 
systems. It also provides greater comfort through the 
incorporation of advanced load carriage techniques that 
distributes the combat load over the torso and onto the hips.
    The MTV incorporates our existing Enhanced Small Arms 
Protective Inserts, or ESAPI, as well as side SAPI plates. 
These plates are provided to every Marine currently in the 
theater. They will also be provided to every Marine that 
deploys to the theater. ESAPI provides the best protection 
available against a wide variety of small armed threats, up to 
and including 7.62.
    Finally, in February, the Marine Corps will begin fielding 
Flame Resistant Organizational Gear, sometimes referred to as 
FROG. We will provide this gear to all of our deployed Marines 
and those preparing to deploy. This life-saving ensemble of 
clothing items--gloves, balaclava, long-sleeved fire-resistant 
shirt, combat shirt, and combat trouser--is designed to 
mitigate the potential injuries our Marines face from flame 
exposure. These clothing items provide protection that is 
comparable to that of the Nomex combat vehicle crewman suit or 
flight suit.
    With the mix of body armor undergarment and outerwear we 
have provided operational commanders, they can determine what 
equipment their Marines will employ based upon the mission 
requirements and the environmental conditions.
    We have positioned ourselves to innovate and modify our 
equipment so that we can continue to meet the evolving threat. 
By working with our sister service and our Nation's 
manufacturing base, the Marine Corps continues to provide our 
Marines the best available equipment against known and 
anticipated threats. We take seriously our responsibility to 
protect our Marines, and we want you to know we are doing 
everything we can. With your continued support, we will 
continue to accomplish that mission.
    In closing, I would like to introduce to you Sergeant 
Joseph Perez. Sergeant Perez is a decorated combat veteran who 
has two tours of duty in Iraq. His personal combat declarations 
include the Navy Cross, the Navy Marine Corps Combat, the Navy 
Marine Corps Commendation Medal with Combat V, the Purple 
Heart, and two Combat Action Ribbons.
    I invited him along so that you can be provided an expert 
opinion of the equipment we are fielding to our warfighters. He 
has served in both Operation Iraqi Freedom I and Operation 
Iraqi Freedom II as a squad leader in Third Battalion 5 
Marines.
    He has available to him on the table a representative 
sample of the infantry combat load, much of which he wore 
during the assault in Fallujah. Also in that battle he wore the 
Outer Tactical Vest. Today, he has available to him the Modular 
Tactical Vest. It is designed with a quick-release cutaway 
system so that a Marine can rapidly egress from it should he 
find himself in water or needing to escape a vehicle. It also 
provides increased coverage particularly in the lower back; 
and, as I mentioned, it better distributes the load off of the 
shoulders onto the torso and hips.
    He will remain after the formal hearing for anyone who 
would like to come down and take a look at the gear or try any 
of it on.
    Again, I thank you for this opportunity to appear before 
you and look forward to providing any additional information 
that you require.
    Mr. Taylor. Thank you, General.
    [The prepared statement of General Brogan can be found in 
the Appendix on page 56.]
    Mr. Taylor. I would like to, for the record, thank my 
colleague, Congressman Neil Abercrombie, who is the chairman 
for the Air and Land Subcommittee, for joining. He will be 
having a hearing of his own that will be classified on much of 
the same subjects at 4 o'clock in 2337. Thank you for being 
here.
    We have been joined by Congresswoman Bordallo of Guam, and 
Congressman Ellsworth of Ohio.
    On the Republican side, thank you, Mrs. Jo Ann Davis of the 
Tidewater area of Virginia, for joining us.
    I would yield to my colleague from Maryland.
    Mr. Bartlett. Thank you.
    Our witnesses were very generous with our time in a 
classified briefing. I asked a number of questions, and they 
answered them.
    As you point out, the primary purpose of today's hearing is 
to assure our fellow countrymen, particularly our service 
members' families, that we are doing all that we can to meet 
the challenges for protection in this theater. I am convinced 
that we could not be moving more expeditiously. I want to thank 
our two witnesses for their service to their country and for 
really expediting the procurement of these protective systems.
    As my custom is, Mr. Chairman, I generally yield my time to 
the lowest-ranking member on our side of the aisle. I thought I 
would be yielding to your side of the aisle, but Mrs. Davis has 
joined us, and I will yield my time to her.
    Mr. Taylor. Mrs. Davis.
    Mrs. Davis. Thank you, Mr. Chairman, and thank you, 
Generals Alles and Brogan, for being here today. And I 
apologize that I missed your testimony, General Alles. I am 
hoping that I don't ask a question that you already answered.
    But, General Brogan, I understand that the current theater 
requirement for the MRAP is 1,022, with 538 Category I, 420 
Category II and 64 Category III vehicles. With the 
approximately 4,000 more Marines that are supposed to deploy to 
Iraq as part of the President's new strategy, do you anticipate 
a need in an increase of these vehicles; and, if so, will the 
required funding be taken from the fiscal year 2007 bridge 
appropriation?
    And, before you answer, I also understand that the 
contractor has had a problem with meeting the schedule with 
these vehicles in the past, and are you confident that the 
mistakes will not be repeated?
    General Brogan. Ma'am, there is an additional requirement 
of vehicles that is making its way through Marine Corps 
requirement command. I will expect that will take into account 
the plus-up forces that will likely be sent to theater.
    As you indicated, there were some initial problems with 
that prime contractor when we started up. My experience in 
acquisition is that it is not that unusual for a new start 
production line. They now are actually producing ahead of 
schedule, so I am confident that they will be able to continue 
to produce vehicles.
    As I mentioned, we are conducting a full and open 
competition to seek additional sources for the category of 
vehicles that you mentioned, Category I and Category II; and 
because of the Category III vehicles, the Buffalo, the heaviest 
and largest of these vehicles can be currently met by our 
contractor. We have not competed any of those, but the large 
quantities of Category I and Category II vehicles are being 
competed.
    I must temper my comments because we are in the midst of 
source selection right now with that.
    We did have a large number of potential offers. I met with 
Secretary Etter this morning, and I now have the approval to go 
forward and have discussions with those offers, and I expect to 
be on contract with a large number before the end of this 
month.
    Our strategy will be to produce two vehicles from each 
vendor. We will take those vehicles up to the Aberdeen Test 
Center in Maryland and conduct two separate tests. The first 
will be a survivability test where we blow up the vehicle; the 
second will be a limited user evaluation to ensure that the 
handling characteristics, maneuverability and things like that 
meet the requirements our Marines and the other joint forces 
needs. And given that the offers meet those hurdles, then we 
have the ability to award Follow On production contracts and so 
then can follow up in producing these vehicles.
    Mrs. Davis. I hope we get everything to our warfighters as 
soon as they need it and hopefully you will come back to this 
committee if you have any other problems. We want to make sure 
our Marines are protected and they have the best--that we have 
the best that you have to offer.
    Mr. Taylor. General, a continual frustration for those of 
us who are trying to resolve problems is that we felt--I 
personally felt many times during Secretary Rumsfeld's tenure 
that we were not given the whole story, that we were often 
given a requirement or told a requirement was filled that was 
below 100 percent.
    It started with body armor. We were told that the 
requirement had been filled, only to find out from the moms and 
dads of Guardsmen and Reservists they were issued the same body 
armor as the regular forces. Then it was the up-armoring of 
HUMMWVs, the requirement had been met, only to find out that 
was a small proportion of the vehicles operating on the roads 
of Iraq and Afghanistan.
    So my question to you is, when you said your requirement, 
as Ms. Davis has correctly pointed out, that we have 23,000 
Marines over there, we are getting ready to send an additional 
4,000, will the additional requirement that you are talking 
about be enough vehicles so that every Marine who is traveling 
the roads of Iraq or Afghanistan is in the best possible 
vehicle?
    General Brogan. My sense is, sir, that our requirements 
have evolved over time. As I indicated in my oral statement, 
the first MRAP vehicles, being the JERRV and the Cougars that 
we procured, were primarily for EOD and combat engineers. 
Clearly, as the ossification of the threats increased, it is 
apparent that we need these vehicles for all of the forces that 
are involved in operations outside of the operating basis; and 
so that was the genesis of the 1,022 requirement that 
Congresswoman Davis mentioned.
    I also indicated that MASDC is now looking at a larger 
number. It has not yet been delivered to me to go procure it. I 
believe that MASDC does its validation of this requirement. 
They will take into account the additional 4,000 Marines who 
will be fielded into theater, and that will be calculated into 
the new requirement.
    So did we have it a hundred percent right the first time? 
No, sir. I believe we used the best numbers that we had 
available; and then, as the need for them increased, the 
warfighter came back through the urgent UNS process and JUONS 
to universal operational needs statement process and sought 
these additional vehicles.
    Mr. Taylor. Last week, in a classified briefing, you gave 
me the target number of vehicles and you targeted a date of 
delivery.
    General Brogan. Yes, sir.
    Mr. Taylor. To what extent can you inform this committee of 
the number of vehicles? Because in my mind's eye, I have 
trouble believing that this number should be classified. I 
would think the moms and dads, the loved ones of the Marines 
would like to know that you have a substantial number in mind, 
that you have what I think is a very realistic but also very 
aggressive target date in mind.
    General Brogan. Sir, I believe there is probably two parts. 
The first part is the requirement that has currently been 
levied on me is to procure 4,060 vehicles. That is for--that 
includes the 1,022 for the Marine Corps as well as vehicles for 
the United States Army and the United States Navy that is 
serving alongside of us. For the Navy, principally they are for 
EOD teams and Seabees. Now for the Army, they will be used as 
their force commanders see best.
    The additional number is changing almost daily, sir.
    Mr. Taylor. How about your target delivery date to get in 
the Marine Corps' hands, and then you explained to me that 
there is some additional work that is done by the Marine Corps 
before they are sent to theater. What is your target date for 
those vehicles? In your position, what is your target date to 
have them fielded in theater?
    General Brogan. As I indicated, I am not buying just for 
the Marine Corps. So that 4,060 vehicles--I have set a stretch 
goal for my team of the end of this year, 31 December, to have 
those vehicles delivered to the U.S. Government. It takes me 
approximately 60 days from that point to incorporate the 
jammers, the radios, the Blue Force Tractor and, as we start 
delivering these vehicles in quantity, surface ship them into 
theater.
    Right now, with the small quantities that we have been 
dealing with, we have been flying them into theater as soon as 
they are prepared. As these quantities increase, I suspect we 
will have to move to sea transportation in order to get the 
vehicles over there.
    So I expect, from the time I get them, in my mind we will 
do the integration of the government-furnished equipment and 
transport them into theater in an additional 60 days. So my 
stretch goal, as I indicated to you last week, sir, is to 
deliver those 4,000 vehicles by the end of this year.
    Mr. Taylor. General, one of the frustrations that this 
committee had with the up-arming of the HMMWVs was the length 
of time that it took. The goals were originally too small. And, 
as members of the staff and as members looked into it, it was 
disappointment after disappointment, that the steel 
manufacturers did not put that steel at the top of their list, 
that because the industry is pretty close to capacity they were 
just putting the normal routine; and apparently no one at the 
Department of Defense even bothered to call up the steel mills 
and say kids are dying. You can save many peoples lives with 
putting this at the top of the list.
    We heard basically the same thing from the ballistic lab 
folks. No one said this is more important than life and death; 
this is more important than an office building in downtown 
Miami or something else.
    To what extent have you researched the pitfalls on the Army 
acquisition plan and learned from their mistakes so that, when 
the first of January rolls around, that those 4,000 vehicles 
are ready to go and, quite frankly, in-house? Do you have the 
manpower and the crews available so that when the vehicles are 
delivered to you that that doesn't become a delay in getting 
them fielded?
    General Brogan. Sir, as to the first part of your question, 
we are working with Defense Contract Management Agency to go 
take a look at all of the subs and the vendors that were 
included in the proposals that came from industry. As my folks 
did, the Source Selection Evaluation Board, they looked at the 
relationships and interrelationships not only among the primes 
but also one tier below that at some of the vendors.
    So there is some concern at overlapping capacity and 
whether or not they will all be able to meet what they laid out 
in their proposals as the quantities, and those quantities are 
what I base my projection on. We have available to us DX and DS 
ratings where we can implement a national security imperative, 
if you will, on industry and move to the head of the line so 
that government deliveries take precedence over anything else 
that would--that they may be manufacturing. That is available 
to us should it be required, and we have used it in a couple 
instances in some of the things that we have been delivering to 
theater.
    So as DCMA takes a look at the capacity of the steel mills 
to provide the steel that would be required for test vehicles 
at the vendor base, at the part suppliers, we will look to 
determine whether or not we need to implement these DX and DS 
ratings. They are available to us by going up to the Office of 
Secretary of Defense and requesting them, sir.
    Mr. Taylor. So, just for clarification, all of the funds 
that you need are there. Is there the appropriation? Is there--
you know of no hurdles at this moment that this committee or 
the full committee or the appropriators need to address in 
order to make this happen?
    General Brogan. Sir, I have in hand moneys from the Marine 
Corps for the first 805 vehicles. The delta between the 805 and 
the 1,022 is included in our fiscal year 2007 full supplemental 
request. I have a portion of the Navy's money, and I have not 
yet received any money from the Army. We are working--the 
Secretary of the Navy is working with the Secretary of the Army 
to get those funds. They will probably have to come to you all 
with a reprogramming action to move money out of a current 
existing line. I believe they intended to fund it in their 2007 
request, but I am not certain of that.
    Mr. Taylor. Okay. I am going to formally request of you 
that information.
    I would also like to remind the committee that Chairman 
Skelton has passed a new committee rule that we would get 
information 48 hours in advance. Because of the gravity of this 
situation, it was my call to have this hearing today because 
the Marines did not get 48 hours' notice. There was no way that 
we could have held them to that account. So we have agreed to 
provide all of the testimony by this Friday; and, hopefully, 
the request I just made of you will be included in that.
    General Brogan. Yes, sir.
    Mr. Taylor. In the order that the members arrived, we will 
recognize Admiral Sestak from Pennsylvania.
    Mr. Sestak. My questions are really just more relying on 
what has already been brought up as you spoke about the 
asymmetric type of threat that we face. How many pounds of 
blasts are we seeing right now out there in Iraq, mine blasts, 
and what do you expect it to be?
    General Alles. I mean honestly, sir, it varies widely.
    Mr. Sestak. What is the maximum?
    General Alles. An average IED attack would be somewhere 
around 250 2-millimeter artillery rounds. They vary 
dramatically in size and what they use. Sometimes they are 
completely improvised explosives, meaning they use accelerants, 
propane, things like that. So there is no necessarily--if I 
were going to say there was a standard attack, it would be that 
152-millimeter round, but they vary wildly. I have got a 
report----
    Mr. Sestak. So they are not getting larger? It just varies?
    General Alles. They are--no, as we have armored the 
vehicles more heavily, they are increasing the size of the IED 
so they will use more artillery rounds, C-4, TNT, whatever they 
use in that particular attack. So they have increased the size 
of the rounds.
    But to try to give you a standard IED, that is part of the 
issue, sir. They are improvised.
    Mr. Sestak. The up-armor Hummer upgrade is for 12-pound 
mine blast. That is what it is good for?
    General Alles. I have to check the number.
    Mr. Sestak. Is the MRAP at least more than that?
    General Brogan. It is, sir.
    Mr. Sestak. Do you know what it is up to?
    General Brogan. I do, but I would rather not say in open 
hearing.
    Mr. Sestak. Is it going to take care of this increasing 
growth of what the mine blast--I mean, it is the lead/lag 
question.
    General Brogan. If your question, sir, is there a mine that 
can overcome an MRAP, yes, there is, but the V-shape hull does 
a great deal for us to disburse that blast as well as the fact 
that these vehicles are much higher above the ground. As you 
know, in an explosion, space is your friend, because it allows 
that wave to expand before it makes contact with the vehicle.
    I would rather not in open session discuss the specifics of 
what those vehicles are designed to protect against.
    General Alles. I would make the comment it is counter-
countermeasure. We feel the solution--they develop a 
countermeasure. We have to deliver another counter to that.
    Mr. Sestak. My overarching question would be, as you look 
back on nearly the last 4 years--and you have worked in groups 
throughout DOD, including ones headed by Mr. Wolfowitz, trying 
to address this issue--what is it from the warfighting policy 
side to the acquisition procurement side is the overarching 
lesson learned so that the lead/lag or the countermeasure, you 
know, counter-counter-counter can be done in a much more 
flexible way?
    I mean, really watching this, it has always been great 
efforts, but you are right. It has always kind of seemed to 
have been watching it, watching to see their next step and--to 
some degree and then catching up. It is always back and forth. 
Is there anything for the speed or the procurement system, the 
acquisition way, that you would sit back and say, this is the 
lesson, we really should take care of this for the next type of 
asymmetric threat, General Alles, that you laid out so well?
    General Brogan. Sir, I would suggest that certainly there 
have been a lot of indications or items where we have been 
responding, but there are also several instances where, because 
of our intelligence systems, we were out ahead of them. But you 
are not going to read about those in the press because we are 
not going to publicize those times where we are proactive and 
out ahead and then tip our hand. So all that you ever hear 
about or read about are those times where we are purely in a 
reactive mode.
    There are some things, sir, that I believe could help speed 
up some of the acquisition processes in particular. I believe 
last year the Congress provided two special operations command, 
something called combat mission needs funds. This was a pot of 
money provided to the commander and the acquisition executive 
in Special Operation Command that we were allowed to use very 
rapidly to respond to an emerging threat if something was 
available to fulfill it. A similar ability for the services 
would be very helpful.
    Another area that could assist us is the below threshold 
reprogramming limits. They have not been changed in a number of 
years, and in some cases that affects our ability to move money 
back and forth into some of the areas of more urgent needs at 
the expense of some of our longer-term investment programs. So 
I would suggest or offer that you could all take a look at 
that.
    General Alles. Sir, I would offer also that on one 
important point is we need to maintain a close alignment with 
the operating forces. So one of the initiatives that we took 
from the warfighting lab was to put a counter-IED cell in Iraq 
which is composed of seven officers that actually work at the 
warfighting laboratory. That gives us a closer alignment 
between the operating forces and the requirements as they come 
to pass.
    One of the issues that has come to the forefront is the 
issue of counter-sniper technology. We have actually been able 
to be in front of counter-snipers to a degree because we had 
money we invested in years past in counter-sniper technology 
based on what we were seeing from the operating forces and able 
to field some near-term solutions. It is not a panacea. It is 
helping, but, because of that close alignment, it has allowed 
us to respond more rapidly.
    Mr. Sestak. Thanks. I am up just about finished with my 
five minutes. I did not mean my comments to be critical. I 
mean, nobody does it better than the Marines.
    General Brogan. Thank you, sir.
    Mr. Sestak. And I mean that. It is just that it seems to 
me--and having watched it from both sides--what you can know on 
the inside and what you know on the outside is that there has 
been or there is really an effort to step back from this for 
the next inevitable conflict and what it really is to make sure 
that we have drawn the study, the execution for this 
acquisition system of ours we all critique and the tie to the 
warfighters so that some of the--one little bit of lead/lag is 
just too much. Has that been done yet?
    General Brogan. General Alles mentioned the lessons 
learned. We are attempting to capture those. I don't believe 
there has been a systematic review of the acquisition 
processes, sir.
    He also mentioned the urgent universal needs statement. 
That is the method by which the operating forces identify an 
urgent requirement to the acquisition system. In order to help 
shorten that cycle time, I have placed a liaison officer with 
the MMEF so, as they begin to look up the urgent UNS, they can 
begin to let us know what our project officers and program 
managers need to begin looking at, seeing if there is anything 
available in industry that can immediately fulfill that need 
or, unfortunately, we have to embark upon a development effort, 
which takes much longer.
    Mr. Sestak. Thank you very much. And, you know, these great 
things you do as you go along, if they were institutionalized 
in the lessons learned, it would be good. Thank you, sirs, for 
your time.
    Mr. Taylor. Thank you, Admiral.
    Something I should have mentioned, particularly for the 
newer members, what we have found, sadly, in Iraq is that a 
disproportionate legion of the casualties are of mines and IEDs 
and a disproportionately high number of those have occurred on 
trucks and HMMWVs. So, although the HMMWV is the most common 
vehicle in the American inventory, there is still a 
disproportionate percentage of the death in and amputations 
that have resulted from attacks on them and that purpose of 
this is to try to solve that problem for our Nation to move on.
    Since our enemies talk to each other either face to face or 
over the Internet, attacks in Iraq are again to be seen in 
Afghanistan or someplace else in the world. So this is an 
attempt in this committee to--we are aware of a problem which 
we are trying to solve it.
    Having said that, I want to recognize the gentleman--we do 
this a little bit of out of order since we don't have many 
Republicans. We want to be fair. Mr. Wilson from South Carolina 
is recognized.
    Mr. Wilson. Thank you for being here today. I am very 
grateful.
    I represent Parris Island; and, General Alles, I noted with 
interest that you served at the Marine Air Station in Beaufort. 
We really appreciate the impact of the Navy and Marines to the 
communities that I represent.
    I am particularly interested in the Cougar and Buffalo. And 
I apologize that I was late. But I have even had the privilege 
of visiting the manufacturing sites of these particular 
vehicles, and--you touched on it; it may be repetitious--I 
would like for you to review what has been the record of these 
two particular vehicles and, in particular--I know you touched 
on it a moment ago, but I would like to hear it again and the 
unique V shape and how that has such a positive impact.
    General Brogan. Yes, sir. The V-shaped hull is designed to 
force the blast off to the side, away from the embarked spaces 
in the vehicle, and the fact that the vehicles sit up high 
provides space so that that blast can form and get larger and 
not have as much impact on the hull of the vehicle.
    The two vehicles that you mentioned, the Cougar and the 
Buffalo, are both serving very well in theater right now. We 
have not had a single Marine fatality in either one of those 
two vehicles. Against the blast, shrapnel, effects of both IEDs 
and mines, they are doing a tremendous job. So that is why we 
have the imperative to get these vehicles into theater.
    General Alles. I would just remark, sir, that that vehicle, 
these V-shaped vehicles, which goes beyond just the Cougar and 
Buffalo, account for 14 percent of our taxes, but only 3 and a 
half percent of our casualties. So they are very mine-resistant 
vehicles which are behind the impetus to move toward them.
    Mr. Wilson. They are also very intimidating to the enemy. 
To see the vehicle is awesome, and so it has to be very 
assuring to Iraqi allies and intimidating to persons opposed to 
us.
    And I know, again, that this has been mentioned, and I 
appreciate the question from the chairman a moment ago, but we 
can assure family members that the Marines who deployed, the 
Marines to be deployed, that they do have those in a combat 
role, have up-armor vehicles in totality; is that correct?
    General Brogan. They have up-armor vehicles yes, sir. The 
majority of those are up-armor HMMWVs. This effort is to 
increase the density of these V-shaped hull vehicles in the 
operating forces.
    Mr. Wilson. As an indication of my appreciation of what you 
are doing, I am wearing a wristband today for a Marine who is 
serving on--a Naval academy graduate currently in Iraq, and so 
I wanted to thank you for your service. I want to thank the 
young people who are protecting our families.
    And I yield my time.
    Mr. Taylor. Thank you, Mr. Wilson.
    The Chair now recognizes Mr. Courtney from Connecticut.
    Mr. Courtney. Thank you, Mr. Chairman.
    Thank you for sharing with us your experience and time here 
today.
    I want to go back to Congresswoman Davis' question, because 
I was trying to follow the answer, General Brogan, in terms of 
just the timing, of making sure that this new surge of troops 
is going to be protected with the best armor possible.
    The Baltimore Sun actually had a story a few days ago which 
indicated that, in fact, two brigades are being sent over 
without having these up-armor or strengthened, toughened 
vehicles available to them. Senator Dodd from my state, I know, 
has sent a letter to Secretary Gates inquiring about whether or 
not that shortcoming is, in fact, the situation for the people 
who are--the new troops that are being sent over to Baghdad.
    And just listening to your description of the sequence of 
the procurement, I mean, it did sound like if people are moving 
over there even today, which most news accounts seem to 
indicate, it is hard to see how those vehicles are going to 
catch up to them.
    General Brogan. Sir, these vehicles will not arrive before 
the troops. The need for these vehicles is greater now than it 
was when we first received the requirement. As I indicated, 
requirement has increased from the first deployments that we 
made just for EOD and combat engineers to now a much wider need 
for these vehicles for all troops that are involved in 
patrolling.
    It is the policy--it is my understanding it is the policy 
of the operation by commanders in theater that no Marine goes 
outside the wire unless he is in an up-armor vehicle. That 
could be a HMMWV or an MTVR, but they are not going outside the 
wire in those vehicles, and I am fairly confident that that 
requirement, that structure will remain in place even for these 
additional troops.
    The folks in Installations Logistics at Headquarters Marine 
Corps are looking at how we will meet this plus-up troop 
deployment with the equipment that we have on hand. There will 
be some cross-leveling of gear that is currently in theater. 
There will be some additional deployment of gear that is at 
home stations. But we don't want to completely strip away our 
training base because these vehicles handle differently than 
the unarmored version, and we want to make sure our Marines, as 
they go through Mohave Viper out of Twentynine Palms, are 
familiar with the handling characteristics so we avoid needless 
accidents in theater that could injure or kill marines.
    It is my understanding that operational commanders are 
ready to execute this cross-leveling so that all of the Marines 
who operate outside of the forward operating bases (FOBs) will, 
in fact, have up-armor vehicles. It is then incumbent upon me 
and my staff to deliver as rapidly as possible these MRAP 
vehicles as they come off the production lines.
    Mr. Courtney. Thank you. I didn't mean to suggest there was 
any shortcoming, and it is obvious you are doing everything you 
can to make sure our guys are protected and to make sure our 
men and women are protected.
    Another question I have which is an issue that seemed to be 
out there in the public realm over the last couple of years or 
so which is about families who are trying to use their own 
resources to get their family members body armor that otherwise 
might not have been available. I know legislation was passed to 
provide for reimbursement for those families, and it seemed 
that there was difficulty trying to figure out how to get those 
payments where they--I wondered if you could give me a quick 
sort of update, and I apologize not knowing the latest on that 
information.
    General Brogan. And I can only speak from a limited 
knowledge standpoint from the Marine Corps. What I have been 
told is that we had very few cases of that in the Marine Corps 
that are in fact providing all of our folks with the ESAPI, 
with the side SAPI plates as well as the quad guards and the 
other pieces of the personal protective ensemble and then the 
commanders tailor what they wear to the specifics of the 
mission. To my knowledge, there has not been a problem with 
that in the Marine Corps.
    General Alles. We don't know the exact numbers of what has 
been applied for for reimbursements. We have taken that for the 
record, and we can get back to you.
    Mr. Courtney. I would appreciate that.
    Mr. Taylor. Thank you, Mr. Courtney.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    Mr. Taylor. Next in the new order would be Ms. Bordallo 
from Guam.
    Ms. Bordallo. Thank you, Mr. Chairman; and I want to say it 
is a privilege and honor to return to this subcommittee and to 
serve under Chairman Taylor and Ranking Member Bartlett.
    Generals, thank you for being here today; and I do have a 
couple of questions.
    The Marine Corps has a special place in Guam's heart, and I 
represent Guam. They liberated us, and they are returning, 8 to 
10,000 of them from Okinawa to Guam, in the next few years. So 
we are all very excited about that.
    I have been to Iraq many times, and I appreciate the 
challenges that our Marines face in theater, and I also have 
seen much of the new upgraded equipment. It has been explained 
to us while we are over there in theater. And, as you might 
suspect, since I represent Guam, I have seen Marines conducting 
many training operations in the Pacific; and I do not want to 
stray far away from our primary focus today and that is the 
protection of our Marines serving in Iraq and Afghanistan.
    However, I do, at times, worry about what implications our 
current actions have on future operations. That is whether we 
are creating tunnel vision on current operations to the 
exclusion of potential future operations in other areas, the 
Pacific, and let us mention North Korea here. Can you discuss 
how the existing fielding procedures incorporate the full 
spectrum of Marine operations, including amphibious operations, 
and whether the Marine equipment development procedures have 
taken into account missions that are unique to the Marines?
    Whichever one of you would like to answer that.
    General Brogan. Yes, ma'am. I believe our focus, main 
effort, right now is certainly equipping the troops that are, 
number one, in theater and those that are preparing to go next, 
the ones that are in the training pipeline. With General Conway 
becoming the commandant of the Marine Corps, he has set about 
institutionally refocusing on all of the challenges that we 
potentially face and ensuring that we remain relevant as Marine 
ground task forces, not just as fighters in the realm of 
counterinsurgency, the area in which we find ourselves today.
    The urgent UNS process, the joint universal operational re-
extending process that we use very frequently to equip our 
Marines in theater, has that focus, the Marines in theater. But 
our ongoing programs of record are designed to equip the entire 
Marine Corps for the entire conflict, not just for 
counterinsurgency. I don't think we have completely taken our 
eye off the ball, ma'am, but we are facing one direction more 
than the other.
    Ms. Bordallo. I know the situation is very serious today in 
Iraq and Afghanistan, but it seems that you never know where 
anything is going to erupt in the world.
    General Alles. Ma'am, I think you have seen from the 
commandant's planning guidance he is concerned about the 
turnaround ratios, we call them, for our operating forces. In 
some cases, they are low, one-to-one, for certain of our 
operating forces; and one of his objectives is to get those 
turnaround ratios raised to allow us to keep our focuses on the 
areas of the world that we need them. That has been very 
explicit in his guidance. It is critical how we do our training 
in being prepared for where the Nation calls us to serve.
    Ms. Bordallo. Thank you very much, and I am pleased to hear 
that.
    My second question is, in a hypothetical world, if you 
could pick a single technology under development today to be 
completed and fielded to all Marines in combat tomorrow, what 
is that single technology and why? In other words, what is the 
most important technology or item that you have in development 
that will save lives in the current combat theaters and in the 
future?
    General Brogan. I think perhaps, ma'am, for that technology 
that we have in our hands right now, getting the MRAPs into 
theater as rapidly as possible will save lives. But, frankly, 
if we were able to develop a system that would pre-detonate an 
improvised explosive device, blow them up out ahead of our 
vehicles, blow them up while they are being planned, then that 
would go the furthest in protecting our folks.
    General Alles. I would make the comment that there are a 
number of efforts that are under way. They are classified 
efforts. I think it would be beneficial for the subcommittee to 
hear about those efforts. We gave some to the professional 
staff members when we met with Congressman Bartlett and Taylor 
last week. But, as with General Brogan, that would be a game-
changing technology to pre-detonate IEDs.
    Ms. Bordallo. Thank you very much. Thank you for your 
service to our country.
    Mr. Taylor. Again, in the order that they got here, would 
be Congressman Ellsworth from Ohio.
    Mr. Ellsworth. Indiana. We are pretty close.
    Mr. Taylor. I apologize.
    Mr. Ellsworth. Not at all. Ohio is a great state.
    Thank you for your service and everything.
    Mr. Taylor. Congressman, can I interrupt? We are going to 
vary again, since we did not have--we gave the Marines very 
short notice, turns out that Sergeant Joseph Perez, who is the 
recipient of the Navy Cross, two tours in Iraq, has agreed to 
make himself available for questions. We are proud of our 
Admirals. We are proud of our Colonels. As a former enlisted 
guy, I will tell you I am of the opinion that we appreciate the 
officer corp, but they do not have a monopoly on everything.
    If you would, we can find you a chair. We are going to put 
you up at the panel and make you available for whatever 
questions that the members may have and given. Thank you for 
your service, and thank you very much for making yourself 
available to this committee on such extremely short notice. We 
are honored to have you here.
    Mr. Ellsworth. Thank you, Mr. Chairman. This may be the 
appropriate time for this, because Mr. Perez might be the 
appropriate person to ask this.
    In my experience with wearing a vest, I know that a lot of 
times my officers would improvise on their own when things were 
not comfortable, and when they did not fit exactly right, they 
would do things on their own, cut little Vs out here to make 
them more comfortable. And I was going to ask him, and perhaps 
you will be the best one to answer this, what kind of 
feedback--because short of sewing somebody into a Kevlar 
blanket, there are going to be crevices, and I know that you 
have to be able to move, you know, everything to get around and 
to do your job.
    What is the feeling of the new technology, the new pads, 
and do you find your people having to do that? Is that against 
orders? I assume that destroying government property and 
improvising may be, but are you finding where you can do your 
job in the new, and what kind of feedback are you getting with 
the new equipment, personal vests, I guess?
    Sergeant Perez. All of the old gear is mainly the stuff 
that I wore whenever I was in Iraq. It put a lot of stress on 
the shoulders, and like you said, people would modify their 
vests to fit them, because if you are out on a 4-hour patrol 
and your back hurts, you are not very conscious of what is 
going on around you.
    This new vest that we have, the modular tactical vest, is a 
lot more supportive only because it distributes the weight 
throughout the body. It is very new, but from what I have seen, 
I have actually put it on with the full load on, and it 
distributes a lot better. I feel like I can patrol a lot 
longer. I would be a little bit more happy with the outcome of 
a four-hour patrol in the sun in that vest as opposed to the 
other.
    Some of the upgrades that they have added to it is the side 
protection is now sewn on the inside, and it is hugging to the 
body; whereas, the other one was more out and pushed your arms 
out. The mobility in your arm movement was restricted due to 
the placement of the vest--or of the side armor. You were not 
able to get a proper shooting platform while using the other 
vest.
    So I think, you know, in the short time that I have been in 
the Marine Corps, the gear has progressed very rapidly. I came 
in with ALICE Packs that were made out of metal and horrible 
cloth, and now we have all kinds of stuff that is ergonomically 
correct, and it is helping. So I do believe that we are taking 
a step in the right direction.
    Mr. Ellsworth. Are any of the panels--and I am sorry I was 
late. You may have shown this--able to be removed where, if you 
do not need the neck pad, you can pull that off of Velcro and 
replace them depending on the situation you are going into?
    Sergeant Perez. What I had encountered when I was in the 
operating force is most of the commanders dictate what you are 
going to wear. You know, the mission of whatever you are going 
out to accomplish dictates what you are going to wear for that 
mission. So, yes, it is removable, but for the most part you 
are going to wear most of it all the time due to the IED 
threat.
    Mr. Ellsworth. Thank you.
    And I guess my second and last question, unless I think of 
something else, would be, General--I think that you may have 
answered this and do not want you to go into anything that, you 
know, would be classified. Certainly the ability to blow these 
IEDs up before we get--especially when they are being planted 
would be a good time, in my book, but are there other things 
that we are doing correctly--and I heard General Alles talk 
about some of these are mortar rounds; some are, you know, 
other materials. Are there things you can talk about 
proactively that we are doing--now, I think back to stopping 
the war on methamphetamine, that we are regulating 
pseudoephedrine.
    Are there things that we are doing in theater to control/
seize on end before it becomes a bomb, controlling the 
fertilizer, controlling the fuel, whatever it is they are 
making these bombs out of? And like I said, if it is 
classified, just let me know, and I will catch it later.
    General Alles. Sir, honestly, a lot of it is classified, 
but there are efforts to reduce caches when we find them. That 
is a source of IED material on the part of insurgents. There 
are efforts to pattern-analyze how the IEDs occur as we go 
after bombmakers and the like. A lot of the details are going 
to be classified, but we do want to interrupt the kill chain. 
In the emphasis to interrupt the kill chain before the blast 
occurs, armor and the like is effective, but it is occurring at 
the moment of the blast.
    So I would agree that we can go after the networks and the 
materials that they are utilizing in those networks. We are 
aggressively doing that. There are a number of classified 
programs against, which would have to be briefed in a closed 
session, which are helpful in those areas. Again, it is not a 
panacea, but a many-pronged effort to get at the IED problem.
    General Brogan. If I might, sir, before we leave the MTV--
and as the Chairman indicated, officers do not have a lock on 
all of the good ideas. What we did is interview the marines as 
they were coming out of theater in both I MEF and II MEF. What 
were their concerns with the OTV? What were the problems they 
had with it? And that led directly to the MTV. After we found 
out what their issues were, it had to do with weight 
distribution, with comfort, with having the side SAPI plates 
integrated into the system, with being able to rapidly egress 
if they find themselves in water.
    What we did then is held an industry day. Eighteen vendors 
participated. We down-selected that to six, and then we took 
those six vests down to Camp Lejeune and let 30 marines wear 
all of them. If I recall correctly, 89 percent of them selected 
what has become MTV.
    So we do try to take the input of those enlisted marines, 
the folks who actually wear the equipment day in and day out, 
and include that in our design process.
    Mr. Ellsworth. Thank you very much, Mr. Chairman.
    Mr. Taylor. Again, my apologies, and I will not make that 
mistake again.
    Sergeant, again, I want to tell you how much I appreciate 
your making yourself available for this. The generals have had 
a few days to prepare. You have had 20 seconds, and to be in 
the presence of the recipient of a Navy Cross and someone who 
has done as much as you have, I want to tell you I appreciate 
your making yourself available.
    And before I recognize the gentleman from Hawaii, since the 
generals have had an opportunity to make an opening statement--
and I know I am putting you on the spot, but it is not every 
marine who is going to get a chance to talk to a bunch of 
Congressmen, and given this opportunity, if there is something 
that either the generals have missed or we have missed as far 
as the needs of the individual marines, something that is out 
there, something that has been developed or has not been 
developed that we need to be looking for, I would welcome your 
thoughts on that.
    Sergeant Perez. I think when--you know, a lot of the guys 
that are operating on the ground, the infantrymen that are 
actually patrolling, you know, the cities by foot or by mobile 
patrols in HMMWVs or in some of the other vehicles, I think a 
lot of emphasis is being put on, you know, hey--like they said 
before, we cannot wrap ourselves in Kevlar blankets. A lot of 
this gear is great, a lot of it is very hindering, and just 
because you have a piece of Kevlar on every single inch of your 
body does not mean that I am more effective on the battlefield. 
I need to be able to shoot, move and communicate, and if I 
cannot move, all of that protection that you have given me now 
just made me a sitting duck, and it is pointless for me to have 
it on anyway. So I guess, you know, if you could, keep in mind 
that we do like better gear, but it is not necessarily to be 
fully protected 100 percent all the time.
    Mr. Taylor. As a follow-up, is there anything that we, as a 
Nation, are buying that you think is poorly spent money? Is 
there anything that you see out there that we are not buying 
that you are aware of that we should be?
    Sergeant Perez. I am not really aware of those types of 
things, sir. The only thing that I see is, you know, on the 
squad level, hey, what are my marines needing and what--you 
know, and for the most part, the Marine Corps has--as a squad 
leader, when I came back from Fallujah, I sat down for three 
days and did after-action reports with my fellow squad leaders 
and platoon commander, and that was, I am assuming, turned--you 
know, given to higher, and they, in turn, turned it in to 
higher, and it has turned into what it is now, you know, us 
getting better gear. So, like I said, in the short time that I 
have been in the Marine Corps, the gear progression has been 
very rapid.
    Mr. Taylor. This could be the ultimate after-action report 
as far as getting your desires on the record, and so I want to 
give you that opportunity. Again, we are never going to tell 
you how to take a hill. We do buy--at the end of the day, we 
are responsible for buying the things you need, and that is why 
I am asking you this question.
    Sergeant Perez. I mean, just put more ammo in our pockets, 
and, you know, give us enough water to survive for a couple 
days, and we are good to roll.
    Mr. Taylor. I now yield to the Chairman of the Air and Land 
Forces Subcommittee, the gentleman from Hawaii, Mr. 
Abercrombie.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Sergeant, if you happen to think of something or want to 
comment on something as we go along, please feel free to do so. 
Can I ask both generals and perhaps the sergeant, too?
    Because some of the phraseology and the acronyms that we 
use are familiar to us, they may not be familiar to the 
audience at large, and the hearing is being broadcast out 
there, if it does not bother you too much, even though it may 
sound repetitious and something that takes more time than it 
should, I think we need to say what it is we are talking about. 
If you are talking about a Modular Tactical Vest, I think we 
need to say it, if it is okay with you folks. You are not going 
to hurt our feelings, is what I am driving at, if you say it 
out specifically each time because there are literally, 
probably, thousands of people who may be tuning in who simply 
do not know what we are talking about, and they are all 
interested. That is why they are tuned in. That is for sure. Is 
that okay? You will not hurt anybody's feelings.
    General Brogan. I will try to remember, sir. It is a bad 
habit we get into.
    Mr. Abercrombie. Oh, no. It is a good habit, actually. I 
mean, it moves things along, and a lot of times, in discussion, 
when we go to the classified hearing, obviously you do not have 
to keep on doing that kind of thing, but that is the only 
thing.
    General Brogan. Aye, sir.
    Mr. Abercrombie. Besides, if you are in front of me in 
hearings that I have, I am going to ask everybody to do that 
anyway.
    Most of the questions I have will have to wait, General 
Alles, for the classified side of things that you have already 
mentioned. There is simply too much to go into that would 
require us to keep saying that, but I want to make sure that I 
understand that some of the logistics involved with whatever is 
evolving, including the rapid progression of useful equipment 
to the sergeant and to the people under his command.
    When you used the--General Brogan, when you used the term 
or used the number 4,060, was that the total number of 
vehicles; or when we are talking about not the equipment but, 
rather, the up-armor HMMWVs or the V-hull or whatever we are 
talking about here, was that the total number, did I understand 
that correctly, of what you are shooting for in the next year?
    General Brogan. The 4,060, sir, is the total number of Mine 
Resistant Ambush Protected, or MRAP, Vehicles that I intend to 
procure, that I have authority to procure right now. Yes, sir.
    Mr. Abercrombie. Good. What is that in relation to the 
Cougar Vehicles, the Rapid Response Vehicles?
    General Brogan. Sir, the Cougar and the Joint Explosive 
Ordinance Disposal Team Rapid Response Vehicle, those are 
examples of a Category II, which is a Mine Resistant Ambush 
Protected Vehicle. So we have broken them into classes. 
Category I----
    Mr. Abercrombie. Does the 4,000 include those kinds of 
vehicles?
    General Brogan. It does, sir.
    Mr. Abercrombie. That is your total number----
    General Brogan. That is correct, sir.
    Mr. Abercrombie [continuing]. Regardless of the various 
acronyms and the various vehicles that we are talking about?
    General Brogan. Yes, sir. That is correct.
    Mr. Abercrombie. We are talking about vehicles that can be 
used for like carrying weapons or something, the MTVR, the 
Medium Tactical Vehicle, right?
    General Brogan. The Medium Tactical Vehicle is primarily--
--
    Mr. Abercrombie. Is that part of the 4,000?
    General Brogan. It is not.
    Mr. Abercrombie. It is not. What are we looking at there?
    General Brogan. I do not know off the top of my head, but 
the numbers are on the chromium table, but we have met the 
acquisition objective for those vehicles.
    Mr. Abercrombie. Okay. The reason I am asking the question 
about numbers is not to trap you into numbers, but to try and 
figure out a clear direction for the Congress. This is for our 
benefit to help you.
    What is the relationship of the--these are all 
replacements. That is what I am trying to get at. Do you have 
the full complement of vehicles now in all categories? If you 
do, what is the relationship of the 4,060 to that? If you do 
not have the full complement now of vehicles in all categories, 
what does it take to have that to bring you up to the standards 
you would have liked to have had and then relate that to the 
replacement progression?
    General Brogan. Sir.
    Mr. Abercrombie. Am I clear?
    General Brogan. I believe so, but let me try to make sure 
that I understand your question.
    We have a certain number of up-armor HMMWVs in theater now. 
A portion of those are theater-provided equipment. They belong 
to the commander of the land force component. They provide some 
of those to the Marine Corps. As I field brand new M1114s, 
which is the designation for an up-armor HMMWV, off of the 
assembly line, that commander in the field can then give back 
some of that theater-provided equipment to the joint commander.
    Mr. Abercrombie. Got it.
    General Brogan. So I am still fielding up-armor HMMWVs into 
theater.
    Mr. Abercrombie. Okay. But when you are just talking about 
the commander in the field, does that include the Army? Are we 
talking about the Army and the Marines together in terms of 
vehicle provision, the provision of vehicles needed for the 
various missions assigned?
    General Brogan. Sir, I would not presume to speak for the 
Army, but, yes, both of us are still fielding----
    Mr. Abercrombie. And that is the goal?
    General Brogan. I am sorry, sir?
    Mr. Abercrombie. The goal is to have that----
    General Brogan. Absolutely.
    Mr. Abercrombie [continuing]. Complement because the 
Marines and the Army have to work together in ops especially.
    General Brogan. Absolutely. The Army is the service that is 
in charge of the procurement of the HMMWVs.
    Mr. Abercrombie. Right.
    General Brogan. I get a portion of the new deliveries to 
field to Marine forces.
    Mr. Abercrombie. Right.
    General Brogan. I believe at the heart of your question, 
though, is whether or not the MRAP, the Mine Resistant Ambush 
Protected Vehicle, is intended to replace on a one-for-one 
basis all of the HMMWVs in theater, and the answer to that is 
no. The unit commanders have indicated to us that there are 
some places where, because of the imposing size of the Mine 
Resistant Ambush Protected Vehicles, they just cannot take 
them, so there will remain a need for some quantity of up-armor 
HMMWVs.
    Mr. Abercrombie. Does that include--do the numbers you are 
speaking of in the process that you are outlining here include 
equipment that would have come with the National Guard units or 
Reserve units in terms of their being deployed and bringing 
equipment with them?
    General Brogan. Sir, right now, in the Marine Corps zones 
in Multinational Force West, our equipment is remaining in 
place, and the troops are rotating in and out, so the troops 
rotate in and fall in on that equipment. Whether it is an 
Active battalion or a Reserve battalion makes no difference.
    Mr. Abercrombie. And it falls into that equipment whether 
the equipment is usable or not, right?
    General Brogan. Sir, we have in place a method by which we 
replace the gear as it is either destroyed or worn out. The 
Marine Corps Logistics Command has placed in theater a pool of 
assets that they call Forward In Stores from which commanders 
can draw replacement items, and then I alluded to that theater-
provided equipment pool that belongs to the joint commander. So 
those are available to ensure that we do not have equipment 
shortfalls for the folks that are in the operating forces.
    Mr. Abercrombie. Well, I have seen that, and that is why I 
am asking this question. Last year we had been through this. 
Some of us had the opportunity to see that, and I am very 
impressed with it--do not get me wrong there--but it became 
very difficult for me to understand how you could keep that up 
no matter how good the sergeant and his folks are at the level 
of repair and maintenance in theater and so on. Just the sheer 
pressure of deployment now seems to me to be putting a strain 
there.
    General Brogan. Sir, I think you are absolutely right. 
There is no question that the operations in Iraq are using up 
equipment at a much higher rate than we would have seen in a 
peacetime environment.
    Mr. Abercrombie. The reason then--let me just go a bit 
further. Again, I am not trying to lead you into anything. I am 
trying to get a clear understanding of what we need to do now, 
if you would just indulge me a moment more, Mr. Chairman. 
Again, I want to make sure I have it correct, that the 
committee has it correct. December 31st is, you feel--am I 
correct that the 4,000 vehicles--given the explanations you 
just outlined, December 31st is your goal for having these 
vehicles in all categories manufactured or available up to the 
up-armoring, if you will, like jammers, et cetera?
    General Brogan. After they are manufactured so that I, as 
the Government, have taken possession of them, and then I need 
that additional 60 days to install----
    Mr. Abercrombie. Now, they are not all going to appear at 
once?
    General Brogan. No, sir.
    Mr. Abercrombie. How many would you say a month are 
coming----
    General Brogan. Sir, because I am still in source 
selection----
    Mr. Abercrombie [continuing]. Or is that classified?
    General Brogan. It is not classified, but it is 
competition-sensitive.
    Mr. Abercrombie. It is what?
    General Brogan. Competition-sensitive.
    Mr. Abercrombie. Well, I want to know something, but I will 
not get into it with you, but then we are going to have to have 
a talk with the Secretary of the Navy or something. I could 
care less about that. Now, if that means you have got to pick 
something--I put my trust in you. I went over your background 
here, and, General Alles, you have got the people here. This is 
your ``kulean,'' as we say in Hawaii. This is your area, 
right----
    General Alles. Yes, sir.
    Mr. Abercrombie [continuing]. That you have to deal with.
    I will tell you what I am sensitive to. I am sensitive to 
somebody who is worried about whether he is going to make more 
money than somebody else out of this and that that holds things 
up. I could care less. That is a policy question.
    General Brogan. If I may, sir, part of my intent is to use 
competition as a lever and to encourage them to increase their 
production capacity.
    Mr. Abercrombie. I understand that. From what I have seen 
or from what I am aware of, this competition, especially some 
of the things we are talking about--that has been gone through 
already. You know what you want.
    General Brogan. I know the characteristics of what it is I 
want. Absolutely, sir.
    Mr. Abercrombie. Well, I am very concerned--and the last 
point of this: Are you getting enough vehicles in all 
categories to accommodate whatever is going to take place with 
this so-called ``surge'' in terms of the influx of new 
brigades, new squads as it comes down to--is that something we 
can talk about now?
    General Alles. Sir, if I could comment on the requirement, 
because I think there may be some confusion here. Right now, 
for MRAP Vehicles, the Marine Corps' requirement is 1,022. We 
expect that number to triple in the next few weeks.
    Mr. Abercrombie. Yes.
    General Alles. There is a new requirement being worked that 
will triple that amount of vehicles.
    Back to Chairman Taylor's question about HMMWV 
replacements----
    Mr. Abercrombie. That is why I am asking the question.
    General Alles [continuing]. That would be enough for the 
HMMWVs I am aware of that we have in theater. Whether the 
commanders choose to use those or not is an operational 
decision, not our decision.
    The other thing to specify is that--sorry. Right. The other 
thing to specify is that they are already working numbers. You 
mentioned the additional marines for units that will surge into 
theater so that we have vehicles for those marines also; MRAP 
vehicles I am talking about. They are also including those 
numbers in that plus-up that we expect to see in the next few 
weeks. It is working its way through our process in the Marine 
Corps to be validated by a Marine requirements oversight 
committee. I should also point out that additional funding to 
buy those vehicles will be required.
    Now, General Brogan mentioned what he already has funding 
on hand for when we increase the amounts of vehicles to these 
higher number requirements--triple the amount is the rough 
number we are using right now--we will have to work on 
reprogramming monies to pay for those.
    Mr. Abercrombie. Has that money come out of the previous 
supplementals that has not been spent?
    General Alles. Sir, I honestly could not answer that.
    General Brogan. Sir, I would anticipate that that 
additional requirement will be included in the fiscal year 2008 
supplemental request. Because I will be in production of those 
first 4,000 vehicles, even if you gave me the money in 2007, I 
would be unable to spend it----
    Mr. Abercrombie. I understand that. That is why I am asking 
the question. I realize the restrictions of time, but we have 
to get through this in order to----
    General Brogan [continuing]. But the beauty, I believe, 
sir----
    Mr. Abercrombie [continuing]. Figure out what to do. 
Otherwise we are off in some kind of charade, and both the 
forces under your command and the American public are going to 
be misled as to what is taking place, and we will not be doing 
what is required of us to support you.
    General Brogan. Yes, sir.
    Mr. Abercrombie. It is easy to talk about supporting the 
troops. It is another thing entirely to do it in the context of 
the legislative obligations that we have.
    General Brogan. Sir.
    Mr. Abercrombie. So the answer I am getting from you is 
that you think you can handle it in terms of the numbers that 
will be required over the next 6 weeks to 6 months.
    General Brogan. Yes----
    Mr. Abercrombie. Am I correct, General Alles?
    General Brogan [continuing]. Because I think the beauty is, 
once we have that production base established, then we can keep 
it running and continue to turn out these vehicles to meet the 
requirements of the operating forces.
    Mr. Abercrombie. So equipment support will not be an issue 
in this surge?
    General Alles. For the Marine Corps. It will require some 
cross-leveling of equipment, but I do not see that as an issue. 
They can work that, sir.
    Mr. Abercrombie. I presume you are working with the Army on 
this, and they are going to be involved in this. It has got to 
be done together. I am not quite sure when you say, ``For the 
Marine Corps.''
    General Alles. I am not aware of what the Army requirements 
are, sir.
    Mr. Abercrombie. Well, we have got to start talking to one 
another about it. I have got--because Chairman Taylor and I 
have to make the recommendations together on this.
    General Brogan. I understand, sir. Unfortunately, we do not 
have the knowledge available to answer your question about the 
Army's requirements.
    Mr. Abercrombie. Well, if Representative Taylor and I can 
talk, do you suppose you might be able to talk with your Army 
counterparts?
    General Brogan. Sir, that is being done----
    Mr. Abercrombie. Okay.
    General Brogan [continuing]. Just not by the two of us.
    Mr. Abercrombie. Okay. Well, you understand where we are 
going and what we need to have. We have to have from the Army 
and from you whether or not we need to do some changes. And the 
final thing I want to say on that, Mr. Chairman, is we need to 
think about--I do not know--remobilization, total mobilization. 
It is no secret to members of this committee and probably to 
some of the folks that I have worked with over the years here, 
I was opposed to this from the get-go, but what I am more 
opposed to is other people letting other people take the 
responsibility and make all the sacrifices.
    It is impossible for me to understand how you cannot 
command mobilization. If you need these vehicles, they have to 
be built, and that means if they have to shove some trucks to 
be sold to some idiot watching the Super Bowl commercial, then 
that is what has to be done. So we need to know what you need 
to have, and if that requires us then to even take legislative 
activity and make sure you get what you need, then that needs 
to be done. I do not think we can fight this thing on the 
side----
    General Brogan. Sir, I appreciate your----
    Mr. Abercrombie [continuing]. As a side issue.
    General Brogan. And I also appreciate your offer for us to 
come back to you if we need your assistance.
    Mr. Abercrombie. Okay.
    Thank you very much, Mr. Chairman.
    Mr. Taylor. Thank you, Mr. Abercrombie, and, Generals, 
since the Gentleman from Hawaii used the word ``we'' in several 
statements, we want to make it very clear. This is for the 
troops. If we get angry, it is going to be at industry and not 
at you. It is going to be that you did not challenge us enough.
    So we want to work with you on this. We want to expedite 
the fielding of the equipment that you need. We saw mistakes 
with the up-armoring of the HMMWVs. We do not want to see those 
mistakes made again, and we want to work with you to make sure 
that that doesn't happen.
    For the newer Members, what you will find is that, in the 
good times and times of feast, you will be scrambling for 
programs that are important, some things that may be made in 
your district that you think we need for times of war, and we 
talk about preserving the industrial base, and all of us have 
done it from time to time. I have served in as much, if not 
more, than most, but the reason we go to bat for the industrial 
base in times of peace is so that it will be there when we need 
them, and that is why a lot of us get very disappointed when 
our industrial base lets us down in times of war where they do 
not make the needs of the warfighter a priority, and that 
mistake was made again repeatedly with the up-armoring of the 
HMMWVs.
    The purpose of this hearing and hopefully of other hearings 
is that we do not make that mistake again, that the industrial 
base that we have fought to preserve, that have made in America 
laws that we have preserved so that we can be self-dependent on 
our own weapons serve--that those things are there to serve us 
in times of need, and this is a time of need.
    I would now like to yield to the Gentleman from Maryland 
Mr. Bartlett.
    Mr. Bartlett. Thank you.
    As I mentioned earlier, within the limits of the system, I 
am convinced that you are moving as expeditiously as possible 
to identify this need and to procure the appropriate equipment. 
What I would like to ask you to do with your knowledge of the 
system is I would like to ask you to take off your uniform; 
imagine you have a loved one in harm's way over there. What 
could we have done better? What do we need to change so that we 
can speed up the sequence of events?
    General Alles. I will go first.
    Sir, one of the things that is of concern is we have to 
reprogram money frequently, and that, you know, is an emergent 
requirement. We are facing an adaptive enemy, and that enemy is 
changing. As he changes, we have to counter his counters, and 
that typically requires some form of new programs.
    As we have worked with the Joint IED Organization, we have 
noticed that they have a tremendous amount of flexibility in 
their appropriation. That appropriation allows them basically 
to put the money to whether it is acquisition or research at 
the time they are going to execute that, and that kind of 
flexibility would be very useful to the Marine Corps in the 
execution of our Title 10 responsibilities.
    There are other things that could be done, but that is one 
that comes to mind off the top of my head that would be 
helpful, and also accelerate the process, because there is 
always at least somewhat of a time delay as you work through 
reprogramming actions.
    Mr. Bartlett. What you are telling us is that, at least to 
some extent, the availability of funds has limited how rapidly 
you could proceed.
    General Alles. To some degree, yes, sir, it does. I mean, 
again, I would not so much say ``availability'' as that they 
are in the correct, you know, program element or correct 
appropriation line.
    Mr. Bartlett. I understand, but availability to you. They 
may be there, but not available to you.
    General Alles. Yes, sir.
    Mr. Bartlett. Okay. Okay.
    Mr. Chairman, that is something we ought to be able to 
change, I would think.
    Mr. Taylor. I would hope so, and again, I will reiterate my 
request for you that, as to any funding needs that you see for 
this program to see that your target date of January 1 is met, 
any messages that we need to pass on to the appropriators for 
the supplemental, we have made the request. You are off the 
hook, as far as I am concerned, that no one on the other side 
of the river should be opposed to our making that request, and 
I would be disappointed if you do not fulfill it.
    General Brogan. Aye, sir.
    Mr. Bartlett. General Brogan, do you have any additional 
suggestions of how we might have made this go quicker and 
better?
    General Brogan. I believe, sir, my comments would probably 
be more philosophical along the lines of what Congressman 
Abercrombie indicated.
    I am sometimes asked as the acquisition individual in the 
Marine Corps, if we could build an LST in 8 days in World War 
II, why does it take us 8 weeks to get an assembly line started 
for Mine Resistant Ambush Protected Vehicles? My sense is that 
there has not been the total commitment by the industrial base 
to mobilize to fulfill the requirements that we find ourselves 
facing. So I am not sure that you all can solve that. I think 
it is in our national psyche to enjoy what we enjoy here and 
continue to provide the wherewithal for our troops in harm's 
way in addition to it rather than in lieu of it.
    Mr. Bartlett. I appreciate those comments. I am old enough 
to have lived through World War II. It was the last war where 
everybody was involved. We have had wars since then, and 
families have loved ones who have been involved, but beyond 
that, not everyone was involved. In World War II, everybody 
that could had a victory garden. We all saved our household 
fats and took them to the central repository. You could not buy 
tires for your car. No new cars were made for 3 full years 
because the industrial base was busy making things for the war 
effort. And I think we need to have a greater sense of urgency 
than we have, and I appreciate the concerns you have with the 
industrial base and how long it takes to get something done.
    Mr. Chairman, I think that all of us would like to see the 
sergeant don that vest. I do not know how you do that in a 
formal hearing, but if he could don the vest and, just for a 
couple of moments, tell us of the significant protective 
features of the vest.
    Mr. Taylor. Sergeant, we would appreciate your doing that, 
please.
    Mr. Abercrombie. You will not be appearing on the Bravo 
channel, Sergeant, but I expect it will be shown elsewhere. 
Hang on one second. Can the camera that you are using here get 
it? Good. Maybe he could explain the functions of the various 
parts of it.
    General Alles. Sir, I think it would be helpful also if he 
tells us a little bit about the weight of that vest and how 
much standard equipment he had to carry in theater. That is 
very important. That has been a big concern.
    Mr. Taylor. General Alles, if you would, please, ask the 
sergeant to walk us through the nomenclature, and one of the 
questions, one of the follow-up questions, is just to give us 
some idea of the weight of the individual parts and the 
cumulative weight.
    General Alles. So, Sergeant Perez, if you would tell us a 
little bit about the gear, and then tell us about the weight, 
and then tell us about what you had to carry in Iraq.
    Sergeant Perez. Okay. I am more used to the different vest, 
the Outer Tactical Vest. It is basically front and back 
protection only. They added the side SAPI in for--like just 
recently, probably in the last year or so, which happened after 
I got out of theater. I have worn it with the side SAPI, and it 
probably had my arms out about right here, okay? With this one, 
it goes--you put it on over your head rather than putting it 
on--like--kind of like a vest, and the improvement is this tab, 
this black tab right here, all I have to do is pull that and 
then unclip one of these, and I am out of the vest, okay?
    If you will notice here, this cumberbund that I am wearing 
that goes all the way around to the back distributes the weight 
onto my torso rather than on my shoulders. Right now I feel 
almost zero weight on my shoulders, so I could probably walk 
around with this on for 3 or 4 hours and it not be a problem 
for me to maneuver.
    Other things--I mean, just--and also the SAPI plates. Like 
I said before, these are now sewn on the inside so they are 
tighter to your body. I can now assume a tighter platform, and 
I can shoot. And also where the other one did not have the 
webbing all the way around to the side where I can attach my 
other gear, this one does have that available to it; and as you 
can see in this one, it has this little flap right here. It 
offers a little bit more back protection. A lot of people were 
getting shrapnel due to narrow hallways, grenades coming down 
those narrow hallways, and then turning away from them, 
catching shrapnel in the back. This offers a little bit more 
protection with the Kevlar on the inside.
    Mr. Adams. Sir, if I may also add, Sergeant Perez is brand 
new to the MTV. One of the other features, if you will turn 
around, please, is this quick release up on each of the 
shoulders. One of the enhancements we put on this vest came out 
of Iraq, from the corpsmen, which is that with the old OTV, 
since it is a front-opening vest, you have to open everything 
up in order to perform any kind of casualty assistance on the 
torso area. What this vest is designed to do is, if you unclip, 
you can unclip either side. That allows the corpsmen to get up 
underneath the vest, work on the chest area, provide life-
saving measures while keeping the rest of the body fully 
covered. That is one of the other key advancements that came in 
from the operating forces, from the corpsmen, particularly what 
they needed in order to do their job of saving the marines.
    A couple of the other features is we have beefed up the 
shoulder area here. Again, we have taken the weight off of the 
shoulders to integrate and for the marine to wear in their 
assault pack. Part of the problem was it drove into the 
shoulder blade areas, so we increased the amount of protection 
in the thickness of the pads up in here.
    We also redesigned the throat protector because the old 
throat protector kept it very close to the throat area, and it 
tended to trap heat, and the marines did not like to use it 
very often, so they would just leave it hanging down. This new 
design brings it further away from the neck. It is 
ergonomically designed. It will also increase the level of 
protection along with the use of a gap sitting in here along 
the vest. This collar was designed so it would tuck closer to 
the vest design area in order to provide more protection to 
what previously was exposed area. And also, we redesigned the 
yoke and collar assembly here where it sat a little bit further 
away from the head because, again, it was trapping heat, and 
also, when they wore the light-weight helmet and they were 
sitting down, the back of their helmet would hit against the 
back of the vest.
    So the marines were going through the design process. We 
redesigned the collar to open it up a little bit further and 
make it more comfortable for the marines when they are both in 
a sitting position and also if they are bending down or getting 
into a prone position for shooting.
    And the last enhancement I will point out is we put in a--
we added a rifle bolster because one of the other complaints 
the marines had was trying to get a good stock weld to their 
weapon. So we have a rifle bolster that can be moved to either 
side--it depends if the shooter is right-handed or left-
handed--and that allows them to get a good sight picture. As he 
brings his weapon up, that bolster helps hold the weapon in 
close to the shoulder where it is supposed to be in order for 
them to get a good sight picture.
    General Alles. Can you talk about the weights?
    Mr. Adams. Yes, sir.
    The weight of the base vest--equivalent to the OTV, it is 
approximately 13 pounds with the soft-armored panels in it. The 
weight of the E-SAPI plates in both the front and the back vary 
by size. For a large size E-SAPI plate, it is approximately six 
pounds.
    Mr. Abercrombie. ``E-SAPI plate'' means the Small Arms 
Protective Insert?
    Mr. Adams. Excuse me, sir. Yes, the Enhanced Small Arms 
Protective Insert plate that sits in the front and the back. 
They reach a little over six pounds each for this vest, for 
this sized marine, and then on the side plate, the side 
Enhanced Small Arms Protective Insert plate, it sits on the 
side, a 6-by-8 plate. Its weight is approximately 2.3 pounds 
each. On top of that is all of the rest of the gear. Depending 
on what his mission is, he adds more weight to the vest with 
his grenades and whatnot.
    Mr. Abercrombie. Ms. Bordallo.
    Ms. Bordallo. Yes, I have a couple of questions.
    Did they design armor with sleeves? I had heard at one time 
there were sleeves, and also, if you are a medic or a radio 
person out in the combat area, what additional weight is that 
in addition to?
    Sergeant Perez. Most of our Navy corpsmen carry a medic 
bag, so they will have a combat load similar to what we are 
wearing. The only thing is that they usually carry a shotgun, 
so they are usually like less----
    Ms. Bordallo. So what is the total weight then with all of 
that?
    Sergeant Perez. I would say probably in the realm of like 
around 50 pounds.
    Ms. Bordallo. Fifty pounds.
    General Alles. Can you talk about the weights you carried 
when you were there? How much do you weigh, and how much did 
you have to carry?
    Sergeant Perez. I weigh approximately 200 pounds. I wore--
what you see here was probably another four magazines so a 
total of eight magazines with every single one loaded to a 27-
round maximum. I carried an M14-- or a PRC-148 radio which 
attached to me, which was a smaller version of the manpack 
radio, and then I also carried a sledgehammer and a pry bar for 
gaining entry into houses.
    Ms. Bordallo. Sergeant, what is the total of all of that?
    Sergeant Perez. With weapon and everything, I would 
probably say in the neighborhood of 70 to 80 pounds.
    Mr. Adams. Ma'am, we have a chart that we normally carry 
that talks about an average personal combat load. It is 
approximately 90 pounds. Now, that includes--that is 
everything. That is his uniform, socks, the whole kit that he 
is wearing. Yes, ma'am.
    Ma'am, also, this was the--you asked about the arm 
protection and all of that. This is the arm protection part of 
what is called QuadGuard, but this is not used by the 
dismounted marines. This is used by marines operating at turret 
to provide the forearms/upper arms protection, shoulders, and 
there is also a trouser that they wear, again, just sitting in 
a turret. In case of fragmentation, their legs are protected, 
but at about 10 pounds, this is way too heavy for a dismounted 
marine to be wearing.
    Mr. Taylor. Mr. Ellsworth.
    I'm sorry. Are you finished, Ms. Bordallo?
    Ms. Bordallo. Thank you.
    Mr. Taylor. Mr. Ellsworth.
    Mr. Ellsworth. What is more liable to compromise the vest, 
shrapnel or a direct round? I maybe can guess that. And how is 
it rated for what arm fire would penetrate this vest, and is 
shrapnel worse or better than a bullet? And I do not know, 
maybe I am----
    General Brogan. There is not a clear answer to that.
    The vests without--the Enhanced Small Arms Protective 
Inserts, the E-SAPI plates, are designed to stop fragments. 
That was generally the primary purpose of combat vests up until 
this point. I mean, from World War II forward, we wanted to 
stop shrapnel.
    With these vests, with the insertion of the plates, we have 
now gone to stopping bullets as well. Enhanced Small Arms 
Protective Insert plates can stop up to a 7.62 round, but the 
plate cannot cover anything, or we would compromise the 
sergeant's mobility, as he indicated. So, in the areas, the 
large vital organs that are covered by those plates, that is 
the caliber that we are able to stop.
    Ms. Bordallo. Mr. Chairman.
    Mr. Taylor. Yes, ma'am.
    Ms. Bordallo. I have one more question.
    Mr. Taylor. Ms. Bordallo.
    Ms. Bordallo. I am just curious. You know, in other wars, 
we did not have this sophisticated armor and gear.
    Do you have any idea how many lives we have--now, I have 
visited the hospitals in Germany and Walter Reed and Bethesda, 
and I have noticed that most of the injuries are to the limbs, 
not to the torso, and I know that must be because of the armor. 
So do you have any idea what are the percentages of those 
during previous wars, you know, as being--as this war now with 
the enhanced armor?
    General Brogan. Ma'am, your instinct is correct.
    We have marines, soldiers and sailors surviving incidents 
that in the past would have killed them, and unfortunately, the 
result of that is we have many more very serious extremity 
injuries. I do not have the exact figures. We will have to take 
that question for the record and then get that information back 
to you.
    [The information referred to can be found in the Appendix 
beginning on page 81.]
    Ms. Bordallo. I know it has to be much better, but I just 
was curious as to----
    General Brogan. Ma'am, our personal protective equipment is 
saving a lot of lives, and marines who otherwise would have 
died are surviving.
    General Alles. I should mention also that this is our 
state-of-the-art ensemble. The enemy recognizes where it is 
vulnerable, and they shoot. That is why we are concerned about 
snipers. They shoot intentionally where they think they know 
the gaps are from observation and where they think they can 
inflict the most grievous wounds on our marines.
    Ms. Bordallo. Well, in spite of it all, it is quite 
fashionable.
    Mr. Taylor. General, you mentioned snipers and the 
unfortunate situation where the enemy is getting better at 
that. I am well aware of the upgrades to the armor.
    A retired Army colonel who has done time in Iraq asked me 
to ask you if you felt like the--that our helmets are adequate, 
or should we as a Nation be looking at something other than the 
existing helmet?
    General Alles. I will let General Brogan address the 
current helmet we have now.
    We do have research efforts underway at the Office of Naval 
Research both on body armor, on helmet improvements, on modular 
designs to try to address some of the deficiencies. Those are 
long-term efforts. We have put about $3 million a year in those 
efforts. It will take us several years before we have an output 
there.
    I will let General Brogan address any--if he has anything 
on the current designs.
    General Brogan. I believe those long-term research 
development efforts, sir--if they can reduce the weight of the 
helmet, I think that would be significant. If you would ask the 
sergeant what it is like to wear that helmet for the number of 
hours that he does on patrol, I think he would be thrilled to 
have the same level of protection in a much lighter 
configuration.
    The current helmets provide a significant level of 
protection against shrapnel and against projectiles. Now that 
we have switched to the pad suspension system, we are also 
providing increased levels of protection against blunt force 
trauma. I believe that the helmets are certainly the best that 
we can provide today.
    Mr. Taylor. Do you know if anything being used by our 
allies or even the former Warsaw Pact is superior that we 
should be looking at?
    General Brogan. Sir, none of our former enemies are close, 
and our allies generally use the same sort of technologies that 
we are. My program manager for an expeditionary rifle squad 
interacts routinely with our allies to look at their infantry 
ensemble and ensure that there is nothing out there that is 
better than what we are currently fielding.
    Mr. Abercrombie. To follow up--thank you, Mr. Chairman. I 
want to follow up on that because that was going to be the 
second round of questions that I wanted to ask. Again, setting 
aside any classified activity, I am very concerned about what 
it means in this increased activity that you are going to be 
facing in the next 6 weeks to 6 months with respect to the 
Ministry of Defense and the Ministry of the Interior.
    General Pace indicated at the full committee hearing last 
week that the allies you will have in conducting your 
activities include National Police, Baghdad Police, National 
Army units, and now I am told that the politicians--well, I am 
not--okay. I have got to be careful about this--that they are 
even considering taking Kurdish units and bringing them into 
Baghdad. Presumably they are aware that the Kurds are not Arabs 
and that you are now mixing ethnicity in with religious 
divisions, all of which Sergeant Perez and others are 
apparently going to be able to figure out on the spot.
    But if that is, in fact, going to take place--you have got 
Kurds, at least two different sections of the Ministry of the 
Interior Police, the Ministry of Defense Army working with 
you--will they be using this equipment, or will we be 
operating--and if they are using the equipment, how is it going 
to be utilized in terms of intercommunication--intrasquad, 
intraforce communication--and if not, how are you going to 
conduct the issuing and carrying out of orders?
    General Brogan. Sir, I am not able to tell you how the 
other forces are going to be equipped.
    Mr. Abercrombie. Well, let's let that aside for the moment. 
What about the equipment side here then?
    General Alles. Sir, I think that would be a question better 
taken for the record. I cannot answer the equipment 
requirements for the Iraqi police forces and the Iraqi Army.
    Mr. Abercrombie. So there is not an issue. When we are 
talking about the equipment here, we are talking strictly the 
Marines and the Army. We are not talking about equipping the 
Iraqi forces of various origins?
    General Brogan. No, sir. I only equip U.S. Forces.
    Mr. Abercrombie. Well, then how are you going to work 
together? I am not quite sure how this is supposed to work then 
out of these police stations--I am not trying to trick you--
because this is happening now.
    General Brogan. I understand, sir. I am not qualified to 
speak.
    Mr. Abercrombie. I am being told as a Member of Congress 
that I am supposed to stand around and watch while this takes 
place because executive authority has decided to move you guys 
in there and do it, and I am trying to figure out, okay, you 
know, if Members of Congress cannot stop people from doing 
things--again, it is easy to talk. It is another thing to find 
out what the practical reality is, the kind of thing that Mr. 
Bartlett was talking about. What we are about on this 
committee, I can assure you, and what the committee as a whole 
is trying to figure out is how to actually support you. Now, 
that is why I am asking the question.
    How does what you are planning to do right now work into 
what is expected of you in the next six weeks to six months in 
terms of the logistics, or is that yet to be determined?
    General Brogan. Sir, I would expect that that will be 
determined by the joint force commander in theater, and I am 
unable to speak to that for you.
    Mr. Abercrombie. Okay. Can we begin to take a look at that 
if you can carry that back across the river and say--you know, 
we are going to have to have this answered real quick.
    General Brogan. Sir.
    General Alles. Yes, sir, we will take that for the record, 
but we are not--I am not qualified to answer that.
    [The information referred to can be found in the Appendix 
beginning on page 80.]
    Mr. Abercrombie. Do you know whether the supplemental 
budget has anything in it for equipping Iraqi allies?
    General Brogan. I do not know.
    General Alles. Sir, again, I cannot answer that question.
    Mr. Abercrombie. Does the 2007 budget have anything in 
there with respect to up-armoring or providing armor or 
providing vehicles or equipment of any kind for the Iraqis?
    General Alles. Sir, again, that is one we would have to 
take for the record. It is not--I mean, we are aware of the 
Marine Corps' programs and Marine Corps' budgeting actions, not 
for the Iraqi Army, sir.
    Mr. Abercrombie. For the record then, the question that I 
am asking is what is the relationship of them in terms of 
budget and the kinds of things we are talking about here, what 
is the relationship to equipping and working with Iraqi allies 
or Iraqi cooperating forces, and do we need to cover that while 
we are covering what you are doing?
    [The information referred to can be found in the Appendix 
beginning on page 80.]
    General Brogan. I understand the question, sir.
    Mr. Abercrombie. Okay.
    General Brogan. I do not have an answer, sir.
    Mr. Abercrombie. Thank you very much.
    Mr. Taylor. Any further questions?
    Again, Sergeant Perez, thank you for your service. We want 
to thank all of the marines present and enlisting for their 
service and all of the men and women who have chosen to serve 
our country.
    Generals, I very much appreciate your being here.
    General Brogan in particular, I want to appreciate your 
setting what I think is a very realistic but also ambitious 
goal. What I would ask of you are some milestones by month that 
you expect to be met for the record so that we can help you in 
tracking this, and should anything occur in the private sector 
that is keeping those milestones from being met, I would hope 
that you would come sooner rather than later to this committee 
to see what we can do to help you to get these vehicles fielded 
and the other things that the Marines need.
    [The information referred to can be found in the Appendix 
beginning on page 77.]
    General Brogan. Sir, thank you for that offer.
    Mr. Abercrombie. One last thing just on a happier note. 
General Brogan, have you had an opportunity to visit Kaneohe 
since your original sojourns out there in the early 1980's?
    General Brogan. I have not, sir. I have not been back to 
Hawaii since I left. I would be glad to come.
    Mr. Abercrombie. Well, then, perhaps we can arrange to have 
you come with us then when we go out there because I would like 
you to see Kaneohe Bay now----
    General Brogan. I understand.
    Mr. Abercrombie [continuing]. And the housing that is 
there----
    General Brogan. There are significant infrastructure 
improvements at Kaneohe Bay.
    Mr. Abercrombie. Including for the single marine, not just 
the families.
    General Alles. I have been out there, sir, and it looks 
wonderful. I would like another assignment there.
    Mr. Abercrombie. Yes. I remember General Krulak, before he 
became Commandant, was commander out at Kaneohe, and then after 
he became Commandant and we had worked on the quality-of-life 
issues on housing out there, he said he was not sure that 
Kaneohe should remain a Marine Corps base.
    Are you aware, Sergeant, of why the Commandant thought 
that?
    Sergeant Perez. I am not, sir.
    Mr. Abercrombie. That is just a trick question. Good for 
you.
    The reason, he said, is it looked too much like a college 
campus. He was not sure the Marines did not need something a 
little more austere, but I do not notice anybody turning down 
any of the housing.
    Anyway, I would like you to come out and see it now some--
what? It will be 20, 25 years later, right?
    General Brogan. It certainly would.
    Mr. Abercrombie. Thank you, Mr. Chairman.
    Mr. Taylor. Mr. Bartlett, anything?
    Okay. General Alles, the smart folks who work with me have 
asked me to ask you. Your opening statement noted the urgent 
need for rapid response, emerging requirements, and then, 
third, existing reprogramming actions limited your flexibility.
    For the record, could you expand on this if you choose to 
do so now? And the other follow-up question was has your 
flexibility been limited?
    General Alles. Sir, we can expand on that in the record. It 
goes back to what Mr. Bartlett asked me, which is we understand 
that the Joint IED Defeat Organization's appropriation allows a 
maximum flexibility because they can determine the purpose of 
the funding at the point of execution. Each year the Marine 
Corps reprograms monies or funding to meet our emergent 
requirements because we have an enemy that is constantly 
changing, and that there are always inherent delays when you do 
those reprogramming actions.
    Our mission, including our Title 10 mission, would be 
greatly enhanced by the ability to--or the kind of 
appropriation that the Joint IED Defeat Organization receives. 
A similar type of appropriation would be very beneficial to us 
and would help us meet these unforeseen requirements and 
necessitate new funding streams.
    Now, the front end of this, the science and technology part 
of this, I can take care of with the Marine Corps Warfighting 
Lab because we can, as necessary, redistribute monies inside of 
my program element to meet whatever the emergent requirement 
is. And we do that, but when it comes to the larger dollars 
required to do procurement on General Brogan's side, that is 
not something that can be met inside science and technology 
funding; that is not what it is made for, and plus, there is 
not enough of that money to do that kind of work anyway, and 
that is what causes us to go through these reprogramming 
actions.
    So receiving appropriation authority similar to what the 
Joint IED Organization has would be very helpful to us as a 
service.
    Mr. Taylor. Would you like to follow up on that, General?
    General Brogan. Sir, as I mentioned, something similar to 
the Combat Mission Needs Fund that was established for Special 
Operations Command available to the services would be helpful, 
and in looking at the below threshold with programming limits 
for both the RDT--research, development, testing--evaluations 
and procurement dollars, neither of those have changed in a 
fairly significant time, so some consideration could be given 
to changing those thresholds, which would provide a little bit 
more of the flexibility that General Alles mentioned.
    Mr. Taylor. If you would provide that request in writing, I 
promise you we will get it in the hands of Mr. Murtha and the 
appropriators.
    General Brogan. Aye, sir.
    General Alles. Sir.
    Mr. Taylor. I want to thank you very much for your service. 
Thank you very much for being here today. This committee is 
adjourned.
    [Whereupon, at 4:54 p.m., the subcommittee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                            January 16, 2007

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                            January 16, 2007

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T7304.001
    
    [GRAPHIC] [TIFF OMITTED] T7304.002
    
    [GRAPHIC] [TIFF OMITTED] T7304.003
    
    [GRAPHIC] [TIFF OMITTED] T7304.004
    
    [GRAPHIC] [TIFF OMITTED] T7304.005
    
    [GRAPHIC] [TIFF OMITTED] T7304.006
    
    [GRAPHIC] [TIFF OMITTED] T7304.007
    
    [GRAPHIC] [TIFF OMITTED] T7304.008
    
    [GRAPHIC] [TIFF OMITTED] T7304.009
    
    [GRAPHIC] [TIFF OMITTED] T7304.010
    
    [GRAPHIC] [TIFF OMITTED] T7304.011
    
    [GRAPHIC] [TIFF OMITTED] T7304.012
    
    [GRAPHIC] [TIFF OMITTED] T7304.013
    
    [GRAPHIC] [TIFF OMITTED] T7304.014
    
    [GRAPHIC] [TIFF OMITTED] T7304.015
    
    [GRAPHIC] [TIFF OMITTED] T7304.016
    
    [GRAPHIC] [TIFF OMITTED] T7304.017
    
    [GRAPHIC] [TIFF OMITTED] T7304.018
    
    [GRAPHIC] [TIFF OMITTED] T7304.019
    
    [GRAPHIC] [TIFF OMITTED] T7304.020
    
    [GRAPHIC] [TIFF OMITTED] T7304.021
    
    [GRAPHIC] [TIFF OMITTED] T7304.022
    
    [GRAPHIC] [TIFF OMITTED] T7304.023
    
    [GRAPHIC] [TIFF OMITTED] T7304.024
    
    [GRAPHIC] [TIFF OMITTED] T7304.025
    
    [GRAPHIC] [TIFF OMITTED] T7304.026
    
    [GRAPHIC] [TIFF OMITTED] T7304.027
    
    [GRAPHIC] [TIFF OMITTED] T7304.028
    
    [GRAPHIC] [TIFF OMITTED] T7304.029
    
    [GRAPHIC] [TIFF OMITTED] T7304.030
    
    [GRAPHIC] [TIFF OMITTED] T7304.031
    
    [GRAPHIC] [TIFF OMITTED] T7304.032
    
    [GRAPHIC] [TIFF OMITTED] T7304.033
    
?

      
=======================================================================


             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                            January 16, 2007

=======================================================================

      
                   QUESTIONS SUBMITTED BY MR. TAYLOR

    Mr. Taylor. What I would ask of you are some milestones by month 
that you expect to be met?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. What novel armor solutions are currently out there? Are 
the best options still aluminum and steel?
    General Brogan. There no armor technological breakthroughs in the 
near term that will defeat the full spectrum of the threat environment. 
All armor design packages necessitate compromises between tactical 
mobility, survivability and specific mission requirements. However, the 
Joint IED Defeat Organization (JIEDDO) is funding the Army Research 
Laboratory's effort to improve the ability of armor to mitigate threats 
faced today in theater. Current avenues of investigation include armor 
composition, composite packaging and vehicle shape. Additionally, The 
Defense Advanced Research Projects Agency (DARPA) is currently 
conducting the Armor Challenge to identify revolutionary and promising 
new armor systems for military vehicles. In conjunction with the Army 
and Marine Corps, DARPA is developing the Hardwire DARPA Armor Program 
to provide a composite armor door kit for the current generation HMMWV.
    Current and forecasted armor solutions require a combination of 
technologies including armors made from Rolled Homogenous Steel, 
aluminum, ceramics and composite materials.
    Mr. Taylor. Are any MAK HMMWVs with high back/troop box being used 
outside the wire?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. What vehicles are currently used to transport troops 
outside secure forward operating bases?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. Could you use the MTVR in a ``gun truck'' capacity to 
serve as interim vehicle while MRAP is being procured?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. Do these theater requirements take into account the 
recent ``surge'' of an additional 4,000 marines to Iraq?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. What are the advantages of V-shaped hulls and what 
other concepts have been developed that offer improvements over the UAH 
(include assessments of foreign vehicles if they can make them)?
    General Brogan. V-shaped hulls mitigate the blast effects of an 
underbody mine. Other factors which complement the shape of the hull 
include ground clearance, armor composition, and vehicle weight.
    When designing vehicles to counter IEDs, tactical mobility and 
survivability are the primary factors that must be addressed. Both 
industry and Government are exploring all technologies which improve 
crew survivability while maintaining tactical mobility to develop the 
Joint Lightweight Tactical Vehicles (JLTV) as the replacement for the 
HMMWV. This technology requires significant research and development.
    Mr. Taylor. What is the current theater policy for vehicle use 
outside secure operating areas? What types of vehicles are allowed 
these areas?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. How are you planning on getting the MRAP vehicles to 
theater? Airlift or by sea? Have you established contact with TRANSCOM? 
Do you have enough lift assets available?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. How long will it take to ship MRAPs by sea?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. How much confidence do you have in the industrial 
base's ability to rapidly produce Cougar/Joint EOD Rapid Response 
Vehicles (JERRV)? There have been problems in the past, how have these 
problems been solved?
    General Brogan. The potential for the industrial base to meet our 
growing requirement is encouraging.
    With respect to Force Protection, Incorporated (FPI) and the 
delivery of Cougar/JERRV MRAP vehicles, the production rates have 
indeed been limiting. The recent teaming between FPI, is helping to 
deliver the desired vehicles on or ahead of schedule.
    Mr. Taylor. In terms of providing additional wheel well protection 
to Up-Armor HMMWVs. How can we speed up this production and 
installation process? Why not provide this armor to every Up-Armor 
HMMWV?
    General Brogan. Our Fragmentation Kit 2 effort is on schedule and 
with installs projected to be finished during March. The kit is a unit 
level install based on the local commander's priority of effort. All 
Fragmentation Kit 5s have been fielded in-theater with installs 
expected to be completed during March. The HMMWVA2 with MAK already 
have the 3/8 RHA wheel well shield installed.
    Mr. Taylor. Can you briefly discuss Distributed Operations and the 
rationale behind this concept? How will this impact force protection 
equipment requirements in theater?
    General Brogan. Distributed Operations (DO) is an additive 
capability that enhances application of the Marine Corps' fundamental 
war fighting philosophy of maneuver warfare. It is a technique applied 
to appropriate situations wherein units are separated beyond the limits 
of traditional direct fire mutual support. The decision to employ DO 
techniques rests with the commander and is based on his assessment of 
the mission, threat, terrain/weather, and troops/fires support 
available. DO is practiced by general purpose forces, operating with 
deliberate dispersion, when necessary and tactically prudent. It 
requires decentralized decision-making and, therefore, relies on the 
ability and judgment of Marines at every level. DO has already had a 
positive impact on small unit leader training and education, making 
Marine tactical units more effective on the modern combined arms 
battlefield, Phase 0 through Phase 5.
    The rationale behind DO rests with an emerging security environment 
that demands multipurpose Marine forces capable of operating with 
greater autonomy across an expanded battle space, in all six phases of 
a joint or coalition operation. Our adversaries' ever-increasing 
gravitation toward irregular warfare and the continually increasing 
lethality of modern weapons have resulted in a greater need for 
dispersion. Commanders are faced with larger frontages and complex 
areas of operation, with potentially fewer forces. Our enemies have 
demonstrated a propensity to disperse, fight in complex terrain (urban, 
mountain, jungle), and complicate our operations by engaging in war 
among innocents. DO provides Marine Corps forces an additional means to 
effectively operate in this emerging environment.
    The Marine Corps views DO as evolutionary, Marine units past and 
present have employed the dispersion espoused by DO to gain tactical or 
operational advantage in specific situations. Circumstances now dictate 
that this capability be institutionalized across the Marine Corps to 
allow for even wider application. The Marine Corps Combat Development 
Process continues to identify the necessary enhancements in manning, 
training, and equipping to reduce or eliminate the barriers that 
prevent current commanders from employing the level of unit dispersion 
the modern battlefield often requires. To facilitate DO, enhancements 
will be required across the battlefield functions of maneuver, fires, 
intelligence, command and control, logistics, and force protection.
    DO has already enhanced the most essential ingredient of individual 
force protection, small unit leadership, by requiring an increased 
level of training for the Corps' infantry non-commissioned officers. In 
addition, dispersion on the battlefield will enhance overall force 
protection by complicating our enemies' ability to target large bodies 
of troops and likely routes of movement. From an equipment perspective, 
there will be little impact on force protection equipment requirements 
in theater, as DO does not alter the basic organization of tactical 
units. While DO enhancements will result in an increase in tactical 
vehicles for our infantry battalions, these vehicles will be armored 
versions of the Marine Corps enhanced HMMWV. Ultimately, the fielding 
of the Joint Light Tactical Vehicle will supersede this requirement.
    Mr. Taylor. How are you going to resource the surge increase?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
    Mr. Taylor. Will MRAP vehicles be rated for off-road use?
    General Brogan. Yes, MRAP vehicles will be rated for off-road use.
    Mr. Taylor. What's the process in validating joint urgent 
operational need statements in theater? What's the average timeline for 
validation, production, and fielding.
    General Brogan. The Joint Urgent Operational Need Statement (JUONS) 
is the process that provides a mechanism for Joint Commands to elevate 
their urgent needs to the Joint Staff.
    Validation process: The JUONS must originate in a joint command in 
theater. For Marines, this command is typically Multinational Forces--
West (MNF-W). MNF-W validates and approves the request for the 
capability need and forwards the request to Multinational Coalition--
Iraq (MNC-I). MNC-I validates and approves the request and forwards the 
capability need to the Central Command (CENTCOM) staff. CENTCOM 
validates and approves the request and forwards the capability need to 
the Joint Staff. The Joint Staff uses the Functional Capabilities 
Boards and Joint Rapid Acquisition Cell to facilitate the funding, 
procurement, and fielding of the validated capability.
    Average timeline: The timeline associated with the validation, 
production, and fielding of JUONS varies with each individual 
requirement based on cost, availability (commercial of the shelf, 
government off the shelf, yet to be developed), and complexity of the 
validated materiel solution. The notional timeline for the staffing 
process once the JUONS arrives at the Joint Staff requires 10-39 days. 
At the end of this time period, the JUONS is handed to the lead Service 
for procurement. Procurement timelines vary according to the amount of 
development, integration and production capability that a solution 
requires.
    Mr. Taylor. When do you expect to achieve the theater requirement 
for the Modular Tactical Vest? How many vendors will produce this vest?
    General Brogan. The Modular Tactical Vest will achieve the theater 
requirement of 60,000 by September 2007. One vendor, Protective 
Products International, manufacturers this vest.
    Mr. Taylor. What has been the feedback from theater regarding the 
pad suspension systems for the Lightweight Combat Helmet (LWH)? Do 
Marines like the system?
    General Brogan. The Program Manager for Infantry Combat Equipment 
(PM-ICE) has a helmet survey that is still being developed/revised and 
expects to post to the PM-ICE website in mid-March. At that time, PM-
ICE will have the capability to gather feedback from theater regarding 
the pad suspension systems for the Lightweight Combat Helmet (LWH) and 
to further determine acceptance by Marines.
    Mr. Taylor. Does the Marine Corps have a requirement for a vehicle 
mounted active protection system?
    General Brogan and General Alles. Yes. The Marine Corps has 
identified a requirement for Active Protection Systems (APS) to enhance 
force protection and vehicle survivability capabilities of vehicles in 
the 14 to 35 ton weight class against Rocket Propelled Grenades (RPGs) 
and Anti-Tank Guided Munitions (ATGMs). Specifically, Operating Forces 
have expressed a need to defeat or reduce the effects of RPGs through 
two Urgent Universal Need Statements. Additionally, the Light Armored 
Vehicle and Expeditionary Fighting Vehicle operational requirements 
documents identify RPG and ATGM defeat as Objective requirements; and 
system threat assessments for the vehicles in the specified weight 
class point to RPGs and ATGMs as significant threats. In support of the 
identified requirement, Marine Corps Combat Development Command (MCCDC) 
conducted an APS Functional Solutions Analysis (FSA) to address this 
force protection/vehicle survivability gap. MCCDC developed and 
assessed all feasible Non-Materiel Approaches capable of mitigating the 
gap. As part of the FSA, the team also conducted an Analysis of 
Materiel Alternatives (AMA) to assess the capabilities of candidate 
materiel solutions. This analysis, conducted in the spring and summer 
of 2006, developed the following categories of gap mitigation:

      <bullet> Detection Avoidance
          <all> Mobile camouflage systems
          <all> Thermal signature management
      <bullet> Hit Avoidance (Soft-Kill Systems)
          <all>  Soft Kill Systems do not physically intercept the 
        threat (e.g., electronic warfare)
      <bullet> Hit Avoidance (Hard-Kill Extended Intercept)
          <all> Integrated Army Active Protection System
          <all> Trophy
          <all> Iron Fist
      <bullet> Hit Avoidance (Hard-Kill Close In Intercept)
          <all> Close-In Active Protection System
          <all> Full-Spectrum Close-In Layered Active Protection Shield
          <all> Close-In Counter Munition
          <all> Quick Kill
      <bullet> Hit Avoidance (Hard-Kill Novel Approaches)
          <all>  Novel Approaches intercept the threat by means other 
        than missle-to-missle defeat (e.g., Linear Shaped Charge or 
        Nets)

    Additionally, the AMA evaluated Passive Penetration Avoidance 
(e.g., slat/bar armor, ceramic armor, composite armor), Active 
Penetration Avoidance (e.g., Explosive Reactive Armor, Non-explosive 
Reactive Armor, Electromagnetic Reactive Armor), and Kill Avoidance 
(spall liners, fire suppression systems, ammunition 
compartmentalization) alternatives to gap mitigation.
    The output of the FSA and AMA was a draft APS Initial Capabilities 
Document waiver letter in August 2006. The FSA concluded that no single 
system possessed all the required capabilities, but recommended further 
study of the following categories of RPG and ATGM defeat mechanisms: 
Soft-Kill/Novel Approach Combination, Hard-Kill (Novel Approach), Hard-
Kill (Extended Intercept), Hard-Kill (Close-In Intercept), and Active 
Penetration Avoidance. Of particular note, the analysis and 
participating subject matter experts identified significant concerns 
with the fratricide threat from Hard-Kill APS solutions. The Marine 
Corps intends to further refine the future APS requirement in the 
specified class of vehicles and will seek funding to support this 
effort through upcoming budget cycles.
    Mr. Taylor. What is the Marine Corps official position regarding 
the Trophy active protection system?
    General Brogan and General Alles. The Trophy Active Protection 
System was one of four Hard-Kill (Extended Intercept) systems assessed 
during the Marine Corps Combat Development Command (MCCDC) sponsored 
APS Functional Solutions Analysis (FSA) and Analysis of Materiel 
Alternatives (AMA) in the spring and summer of 2006. The APS FSA 
resulted in a draft Initial Capabilities Document (ICD) Waiver Letter 
and recommended further study of the following categories of RPG and 
ATGM defeat mechanisms: Soft-Kill/Novel Approach Combination, Hard-Kill 
(Novel Approach), Hard-Kill (Extended Intercept), Hard-Kill (Close-In 
Intercept), and Active Penetration Avoidance. The inherent risk of 
fratricide with all of the Hard-Kill APS solutions will be a critical 
component of future analysis. The Trophy Active Protection System will 
remain one of the candidate materiel solutions as the Marine Corps 
continues to refine the APS requirement for tactical vehicles.
    Mr. Taylor. Is the Marine Corps experiencing high numbers of rocket 
propelled grenade attacks in their respective area of responsibility in 
Iraq?
    General Brogan and General Alles. [The information referred to is 
classified and retained in the committee files.]
    Mr. Taylor. What is the situation in regards to equipping Iraqi 
forces and what will the US provide?
    General Brogan. [The information referred to is classified and 
retained in the committee files.]
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. ABERCROMBIE
    Mr. Abercrombie. So there is not an issue. When we are talking 
about the equipment here, we are talking strictly the Marines and the 
Army. We are not talking about equipping the Iraqi forces of various 
origins? Then how are you going to work together? I am not quite sure 
how this is supposed to work then out of these police stations--I am 
not trying to trick you--because this is happening now. How does what 
you are planning to do right now work into what is expected of you in 
the next six weeks to six months in terms of the logistics, or is that 
yet to be determined?
    General Brogan and General Alles. The Marine Corps conducts 
combined Coalition and Iraqi Security Force (ISF) operations throughout 
the Al Anbar province. We employ embedded Transition Teams (TT) who 
serve alongside the ISF in an advisory and training capacity. Over 700 
of the nearly 28,000 Marines deployed in support of Operation Iraqi 
Freedom or Operation Enduring Freedom are part of the security TT in 
Iraq and Afghanistan working to increase the proficiency, combat 
effectiveness, and internal security capacity of these countries. The 
Marine Corps will prepare over 80 teams during the current Fiscal Year 
for tasks as military, border security and national police transition 
teams.
    While the USMC Fiscal Year 2007 Supplemental provides funding for 
Marines based on plans to support the training teams, it does not 
include any requests for equipment for Iraqi or coalition forces. The 
Department of Defense ISF Fund received $1.7B for procurement and 
fielding of equipment as well as to fund training needs of Iraqi 
forces.
    Mr. Abercrombie. What is the relationship of them in terms of 
budget and the kinds of things we are talking about here, what is the 
relationship to equipping and working with Iraqi allies or Iraqi 
cooperating forces, and do we need to cover that while we are covering 
what you are doing? (page 82)
    General Alles. The Marine Corps budget does not contain any funding 
for the Iraqis.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. BORDALLO
    Ms. Bordallo. Do you have any idea how many lives we have--now, I 
have visited the hospitals in Germany and Walter Reed and Bethesda, and 
I have noticed that most of the injuries are to the limbs, not to the 
torso, and I know that must be because of the armor. So do you have any 
idea what the percentages are of those during previous wars, you know, 
as being--as this war now with the enhanced armor?
    General Brogan. Navy-Marine Corps CTR Deployment Health Database 
Naval Health Research Center
    The anatomical distribution of combat wounds during major U.S. 
conflicts is shown in Table 1. Extremity injuries comprised the 
majority of wounds in all conflicts and are relatively stable. There 
are a reduced proportion of wounds to the chest and abdomen in the 
current conflict compared to previous conflicts.
    Although injury severity was not objectively measured during WWII, 
Korea or Vietnam, during OIF patients with extremity wounds were more 
severely injured overall compared to wounded combatants without 
extremity injuries.\1\ It is also important to note that head, face and 
neck wounds are higher in OIF compared to other major U.S. 
conflicts.\2\ This increase may be because of new injury patterns 
resulting from improvised explosive devices and lack of protection for 
the facial region.


                          Table 1. Percent wounds (fatal and nonfatal) by body region.
                                                   Body Region

                             War                               Head/Neck      Thorax      Abdomen    Extremities

WWII \1\                                                              25%          13%           9%          53%
Korea \2\                                                             19%           8%           7%          53%
Vietnam \3\                                                           15%           8%           5%          55%
OIF 4, 5                                                              29%           5%           6%          51%



    References

1. Mohrle CR, Wade AL, Galarneau MR, et al. Extremity injuries among 
U.S. combat casualties during Operation Iraqi Freedom: a report from 
the Navy-Marine Corps Combat Trauma Registry. Naval Health Research 
Center Report (under review).
2. Wade AL, Dye JL, Mohrle CR, Galarneau MR. Head, face, and neck 
injuries during Operation Iraqi Freedom: results from the U.S. Navy-
Marine Corps Combat Trauma Registry. J Trauma, 2007;63:836-40.
3. Beebe GW, DeBakey ME. Battle Casualties, Springfield, Ill. Charles C 
Thomas, 1952, Chapter 5, pp. 165-205.
4. Reister FA. Battle Casualties and Medical Statistics: US Army 
Experience in the Korean War, Washington DC, The Surgeon General, 
Department of the Army, 1973, Chapter 1, pp 35-54.
5. Whelan TJ, Burkhalter WE, Gomez A. Management of wars wounds, edited 
by Welch CE, Advances in Surgery, Vol 3, Chicago, Ill, Year Book 
Medical Publishers Inc, 1968, p 249.
6. Unpublished data, US Navy-Marine Corps Combat Trauma Registry, 1 
March 2004 to 28 February 2005.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MR. COURTNEY
    Mr. Courtney. Another question I have which is an issue that seemed 
to be out there in the public realm over the last couple of years or so 
which is about families who are trying to use their own resources to 
get their family members body armor that otherwise might not have been 
available. I know legislation was passed to provide for reimbursement 
for those families, and it seemed that there was difficulty trying to 
figure out how to get those payments where they--I wondered if you 
could give me a quick sort of update, and I apologize not knowing the 
latest on that information.
    General Brogan. The Marine Corps has received nine claims for 
reimbursement. Six of these claims were approved and paid. Two of the 
six claims were for body armor.

                                  <all>

</pre></body></html>
